<html>
<title> - ASSESSING AMERICA'S COUNTERTERRORISM CAPABILITIES</title>
<body><pre>[Senate Hearing 108-754]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-754

           ASSESSING AMERICA'S COUNTERTERRORISM CAPABILITIES

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             AUGUST 3, 2004

                               __________

      Printed for the use of the Committee on Governmental Affairs


95-506 PDF             U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2005
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001


                   COMMITTEE ON GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
ARLEN SPECTER, Pennsylvania          RICHARD J. DURBIN, Illinois
ROBERT F. BENNETT, Utah              THOMAS R. CARPER, Delaware
PETER G. FITZGERALD, Illinois        MARK DAYTON, Minnesota
JOHN E. SUNUNU, New Hampshire        FRANK LAUTENBERG, New Jersey
RICHARD C. SHELBY, Alabama           MARK PRYOR, Arkansas

           Michael D. Bopp, Staff Director and Chief Counsel
        Michael Stern, Deputy Staff Director for Investigations
                David Kass, Chief Investigative Counsel
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
                    Kevin J. Landy, Minority Counsel
                      Amy B. Newhouse, Chief Clerk




                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Collins..............................................     1
    Senator Lieberman............................................     2
    Senator Coleman..............................................    19
    Senator Durbin...............................................    22
    Senator Specter..............................................    28
    Senator Akaka................................................    29
    Senator Shelby...............................................    31
    Senator Dayton...............................................    35
    Senator Lautenberg...........................................    39
    Senator Carper...............................................    41
    Senator Levin................................................    45

                               WITNESSES
                        Tuesday, August 3, 2004

John O. Brennan, Director, Terrorist Threat Integration Center...     5
John S. Pistole, Executive Assistant Director for 
  Counterterrorism and Counterintelligence, Federal Bureau of 
  Investigation..................................................     7
Lieutenant General Patrick M. Hughes, Assistant Secretary for 
  Information Analysis, Department of Homeland Security..........     9
Philip Mudd, Deputy Director, Counterterrorist Center, Central 
  Intelligence Agency............................................    10
Philip Zelikow, Executive Director, National Commission on 
  Terrorist Attacks Upon the United States.......................    50
Christopher A. Kojm, Deputy Executive Director, National 
  Commission on Terrorists Attacks Upon the United States........    50

                     Alphabetical List of Witnesses

Brennan, John O.:
    Testimony....................................................     5
    Prepared statement...........................................    73
Hughes, Lt. Gen. Patrick M.:
    Testimony....................................................     9
    Prepared statement...........................................    81
Kojm, Christopher A.:
    Testimony....................................................    50
    Joint prepared statement with Mr. Zelikow....................    96
Mudd Philip:
    Testimony....................................................    10
    Prepared statement...........................................    89
Pistole, John S.:
    Testimony....................................................     7
    Prepared statement...........................................    77
Zelikow, Philip:
    Testimony....................................................    50
    Joint prepared statement with Mr. Kojm.......................    96

                                APPENDIX

Hon. Chuck Hagel, a U.S. Senator from the State of Nebraska, 
  prepared statement.............................................    71
Chart entitled ``The 9/11 Commission's Recommendation for 
  Restructuring the Intelligence Community''.....................   105
Table of Organization Chart......................................   106
Letter from Hillary Rodham Clinton, dated August 2, 2004, to 
  Senators Collins and Lieberman.................................   107
Letter from Hillary Rodham Clinton, dated August 2, 2004, to 
  President Bush.................................................   109
Article dated August 3, 2004, The Washington Post, entitled 
  ``Intelligence Reform And False Urgency,'' by Chuck Hagel......   111
Questions and Responses for the Record from:
    Mr. Brennen..................................................   112
    Lt. Gen. Hughes..............................................   132
    Mr. Zelikow and Mr. Kojm.....................................   142
    Mr. Pistole, Federal Bureau of Investigation.................   160
Questions for the Record for Mr. Mudd from: (Responses to these 
  questions were not received by press time.)
    Senators Collins, Shelby, Akaka, and Durbin..................   181

 
           ASSESSING AMERICA'S COUNTERTERRORISM CAPABILITIES

                              ----------                              


                        TUESDAY, AUGUST 3, 2004

                                       U.S. Senate,
                         Committee on Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:02 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Susan M. 
Collins, Chairman of the Committee, presiding.
    Present: Senators Collins, Coleman, Specter, Shelby, 
Lieberman, Akaka, Durbin, Dayton, Lautenberg, Carper, and 
Levin.

             OPENING STATEMENT OF CHAIRMAN COLLINS

    Chairman Collins. The Committee will come to order. Good 
morning, today the Governmental Affairs Committee holds its 
second hearing on the recommendations of the 9/11 Commission 
calling for a restructuring of our intelligence organizations. 
The 9/11 Commission provides a highly detailed picture of our 
intelligence structure on that tragic day. Ultimately, our 
Committee's responsibility is to recommend how this structure 
should look in the future. We must act quickly to consider this 
report and to complete our assigned task of reporting 
legislation by October 1, and indeed we are acting quickly, 
starting with our hearing last week.
    As we move with both deliberation and speed, we should use 
the Commission's recommendations as a thoughtful and informed 
guide. That does not mean that this Committee will be a rubber 
stamp. The final shape of our restructuring legislation will be 
determined by what we learn at these hearings. The informative 
and insightful testimony we heard last Friday from the 
Commission Chairman, Tom Kean, and the Vice Chairman, Lee 
Hamilton, was a very good start. The testimony focused, as our 
Committee has, on the two most important recommendations 
regarding the Executive Branch; first, establishing a National 
Counterterrorism Center and, second, creating the position of a 
National Intelligence Director.
    Yesterday, the administration acted on some of the same 
issues that we are considering today. I applaud the President's 
swift and decisive action to move forward with some of the 
Commission's most significant recommendations. The fact that 
two of its highest priorities are the restructuring 
recommendations before this Committee emphasizes the importance 
of our work.
    The two panels of witnesses before us today, one from the 
intelligence agencies and the other from the 9/11 Commission 
staff, will discuss the improvements that have been made to our 
post-9/11 intelligence capabilities, the weaknesses that still 
remain, and the solutions that we should consider.
    Progress has been made since September 11. The CIA's 
Counterterrorism Center and the FBI have undergone substantial 
changes. The Department of Homeland Security and the Terrorist 
Threat Integration Center are entirely new. But as one of our 
witnesses here today, TTIC Director John Brennan, told the 9/11 
Commission in April, ``We, as a Government and as a Nation, are 
not yet optimally configured to deal with the terrorist 
threat.''
    We can learn a lot from TTIC since, in many ways, the 
proposed National Counterterrorism Center would be a more 
robust version of it. This Committee has closely followed the 
development and implementation of TTIC, and it has held two 
hearings on its structure and its authority, an issue that has 
been of particular interest to Senator Levin and me.
    The proposed center would be a ``Super TTIC.'' If this more 
powerful version is to succeed, it must get what it needs, both 
in resources and in its place in the priorities of the agencies 
that collect intelligence. At times, getting the resources it 
needs, especially the expert and experienced personnel, has 
been a challenge for TTIC.
    The difficulty in resolving the resource and authority 
issues involving TTIC demonstrates how important it is for 
Congress to clearly define in legislation the authority and 
parameters of the proposed center. The intelligence structure 
that stood for 50 years during the Cold War performed well 
under many administrations and many different agency heads. The 
new intelligence system we are building for the war against 
terrorism must do the same. We have an obligation not just to 
the Americans of today, but to Americans of generations to come 
to accomplish that mission.
    Senator Lieberman.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Senator Lieberman. Thanks very much, Madam Chairman. Thank 
you again for calling this second hearing on the 9/11 
Commission recommendations so quickly.
    The new specific terror threats that we have learned about 
in the last few days, the very fact that this morning this 
capital has checkpoints for vehicular movement that were not 
there yesterday, reminds us that we do not live in normal 
times, and therefore our normal ways of doing business here on 
Capitol Hill are no longer acceptable. Our country is under 
threat of attack, so we must move, and move rapidly, to repair 
what the 9/11 Commission has documented as the vulnerabilities 
in our intelligence apparatus.
    I thank you, Madam Chairman, for taking quick and decisive 
action in scheduling these hearings. Our hearings will be 
followed, as we have learned, by many hearings throughout this 
month, both here in the Senate and on the House side.
    Yesterday, President Bush also acted quickly in response to 
the 9/11 Commission Report. I was pleased and encouraged that 
the President has embraced the two major recommendations of the 
9/11 Commission, which is the creation of a National 
Intelligence Director and the creation of a National 
Counterterrorism Center.
    I am troubled that the recommendation the President is 
making for the National Intelligence Director appears to lack 
the powers that the Commission wants it to have, particularly 
the power over the budgets of the constituent intelligence 
agencies. And I think the challenge to us here, and in some 
ways the danger, is that we will create a new office, but not 
give it the strength to overcome the stovepiping and lack of 
clear command authority that the 9/11 Commission documented.
    Today, we are going to focus on the second of the two major 
recommendations, the creation of a National Counterterrorism 
Center. There, the President's recommendation seems to embrace 
the Commission's proposal, although there are a lot of details 
for us to fill in, hopefully, in cooperation not just with one 
another, but with the White House.
    After studying what went wrong before September 11 and how 
the Federal Government has responded since September 11, the 
Commission concluded that we are still not maximizing our 
intelligence investments and efforts to perform our most 
important task, which is protecting the security of the 
American people from Islamist terrorist attack. The Commission 
found that there are still stovepipes, a lot of work going on 
within the stovepipes, but often not sharing of information 
between them and no one in charge, as Governor Kean and 
Congressman Hamilton said to us in testimony last Friday.
    In its report, the 9/11 Commission concluded that a number 
of intelligence problems--for example, uncoordinated watch 
lists, the failure to share information, the failure to connect 
dots--made it more difficult for the United States to foresee 
and stop the terrorist attacks of September 11.
    In the place of those weaknesses that they saw, the 
Commission recommends this National Counterterrorism Center, 
designed to forge an unprecedented unity of effort, as the 
Commission describes it, against Islamist terrorism. It would 
replace the time-worn, Cold War-era stovepipe approach. All the 
information available to our government about terrorist threats 
to our homeland, whether from the CIA, the FBI, State, and 
local officials or open sources would be shared and analyzed in 
this one place to stop terrorists.
    But the National Counterterrorism Center, as recommended by 
the 9/11 Commission, would not only be a fusion center, it 
would also be a command center for domestic and foreign joint 
intelligence planning. And this is a very significant, in some 
ways revolutionary, change. After integrating all sources of 
information, the center would analyze and shape strategies to 
stop terrorists in their tracks before they are able to do 
damage here in America.
    The National Counterterrorism Center would not execute 
those operations, as I understand the Commission 
recommendation, but would help map the plan, call the plays and 
assign operational responsibilities to the appropriate 
agencies. For the first time, one entity would be able to look 
across agency boundaries and the foreign-domestic divide to 
make sure that intelligence is being shared, that joint plans 
are in place and that those plans are being implemented. And 
someone, the Director of this center, will be accountable, 
finally.
    The National Counterterrorism Center, as I read the 9/11 
Commission's report, should be seen by comparison to the 
Pentagon as a unified combat command, and the Director of the 
center would be the unified commander of our intelligence 
forces in the war against Islamist terrorism. It is very 
important I think to separate, for clarity, this 
Counterterrorism Center, which is focused on the war against 
Islamist terrorism and the National Intelligence Director 
overhead who oversees that terrorism center's work against 
Islamist terrorism, but also all of our intelligence apparatus, 
foreign and domestic, dealing with weapons of mass destruction, 
particular regions of the world, particular problems that we 
are concerned with.
    So this is a bold approach, as the Commission acknowledges, 
but no one can seriously argue, after the 9/11 Commission 
Report, that the current approach has been adequate to meet 
these radically new Islamist terrorist threats of the 21st 
Century, and no one can argue that the threat we face is not 
grave and demands this kind of imagination and bold action.
    So, Madam Chairman, I look forward to hearing the views of 
our witnesses today on the Commission's recommendation on this 
Counterterrorism Center. We have before us commanders, in their 
own right, of the front-line intelligence troops in the war on 
terrorism.
    I know that there are questions about the proposal the 
Commission has made. I have some questions myself, but what I 
know most of all is that the status quo failed us on September 
11, and unless we change it, it will fail us again, for when 
everyone is in charge, no one is in charge; when everyone is 
calling their own plays, there is no team, and the defense of 
the American people suffers as a result. Thank you, Madam 
Chairman.
    Chairman Collins. Thank you.
    I want to welcome our first panel of witnesses. This panel 
consists of officials from four of our most important 
intelligence agencies. I am very sure that their experience and 
expertise will help the Committee complete the task before us. 
I want to thank each of you for your long commitment to public 
service. Each of you have served honorably and well, and we 
very much appreciate your joining us today.
    John Brennan is the Director of the Terrorist Threat 
Integration Center, known as TTIC, the intelligence agency 
created by the President in the aftermath of the September 11 
attacks. I recently had the privilege of visiting TTIC several 
weeks ago. I think I was the first official visitor to your new 
headquarters, and I was very impressed with the work that is 
being done.
    John Pistole is the executive assistant director for 
Counterterrorist and Counterintelligence at the Federal Bureau 
of Investigation. Again, this Committee has a long relationship 
with Mr. Pistole. We have worked together on several issues, 
including the terrorism financing investigation.
    Lieutenant General Patrick Hughes serves as assistant 
secretary for Information Analysis at the Department of 
Homeland Security. We welcome you here today as well.
    And, finally, we will hear from Philip Mudd, the deputy 
director of the Central Intelligence Agency, who clearly plays 
a key role.
    We welcome all of you, and we are going to begin with Mr. 
Brennan.

  TESTIMONY OF JOHN O. BRENNAN,\1\ DIRECTOR, TERRORIST THREAT 
                       INTEGRATION CENTER

    Mr. Brennan. Good morning, Chairman Collins, Senator 
Lieberman, and Committee Members. It is an honor to appear 
before you today to talk about the Terrorist Threat Integration 
Center, TTIC, and the President's decision to establish a 
National Counterterrorism Center.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Brennan appears in the Appendix 
on page 73.
---------------------------------------------------------------------------
    As this Committee knows, the President has embraced the 
Commission's recommendation for the creation of a centralized 
organization to integrate terrorist threat information. 
Yesterday, in the Rose Garden, the President formally announced 
that he will establish a National Counterterrorism Center and 
take other actions designed to continue the process underway 
since September 11, 2001, of strengthening America's ability to 
win the war on terrorism. This is a natural extension of the 
work and successes the administration has already achieved 
through the establishment of TTIC.
    In his State of the Union speech, in January 2003, the 
President called for the creation of an integrated center to 
merge and analyze all threat information in a single location. 
On May 1 of last year, that vision became a reality with the 
stand-up of TTIC. Over the past 15 months, TTIC has endeavored 
to optimize the U.S. Government's knowledge and formidable 
capabilities in the fight against terrorism.
    For the first time in our history, a multi-agency entity 
has access to information systems and databases spanning the 
intelligence, law enforcement, homeland security, diplomatic 
and military communities that contain information related to 
the threat of international terrorism. In fact, TTIC has direct 
access connectivity with 26 separate U.S. Government networks, 
with more networks coming on-line, enabling information sharing 
as never before in the U.S. Government.
    This unprecedented access to information allows us to gain 
comprehensive insight to information related to terrorist 
threats, to U.S. interests at home and abroad. Most 
importantly, it enhances the government's ability to provide 
this information and related analysis to those responsible for 
directing, disrupting, deterring and defending against 
terrorist attacks.
    In addition, there currently exists within the TTIC joint 
venture real-time collaboration among analysts from a broad 
array of agencies and departments who sit side-by-side, sharing 
information and piecing together the scattered pieces of the 
terrorism puzzle. These partners include not only the FBI, the 
CIA and Departments of State, Defense and Homeland Security, 
but also other Federal agencies and departments, such as the 
Nuclear Regulatory Commission, Health and Human Services and 
the Department of Energy.
    As envisioned by the President, this physical integration 
of expertise and sharing of information enables and empowers 
the key organizations involved in the fight against terrorism. 
Collectively, they are fulfilling their shared responsibilities 
in a fused environment, doing business jointly as TTIC. This 
fusion and synergy will be further enhanced when CIA's 
Counterterrorist Center and the FBI's Counterterrorism Division 
co-locate with TTIC in the coming months.
    This integrated business model not only capitalizes on our 
respective and cumulative expertise, but it also optimizes 
analytic resources in a manner that allows us to cover more 
effectively and comprehensively the vast expanse of terrorist 
threats that will face the homeland and U.S. interests 
worldwide for the foreseeable future.
    This integration of perspectives from multiple agencies and 
departments represented in TTIC is serving as a force 
multiplier in the fight against terrorism. On a strategic 
level, TTIC works with the community to provide the President 
and key officials a daily analytic product on the most serious 
terrorist threats and related terrorism information that serves 
as a common foundation for decisionmaking regarding the actions 
necessary to disrupt terrorist plans.
    Rather than multiple threat assessments and disparate 
information flows on the same subject matter being forwarded 
separately to senior policymakers, information and finished 
analysis are now fused in a multi-agency environment so that an 
integrated and comprehensive threat picture is provided. If 
there are analytic differences on the nature or seriousness of 
a particular threat, they are incorporated into the analysis.
    As is evident, the Terrorist Threat Integration Center 
embodies several of the characteristics envisioned by the 9/11 
Commission Report for the proposed National Counterterrorist 
Center. TTIC is an existing center for ``joint intelligence, 
staffed by personnel from the various agencies'' and well-
positioned to ``integrate all sources of information to see the 
enemy as a whole.'' It is likely for those reasons that the 
Commission recommends that TTIC serve as the foundation of a 
new National Counterterrorism Center. As a long-time proponent 
of structural reform of the Intelligence Community, I fully 
support the integration concept and the establishment of a 
National Counterterrorism Center.
    In the weeks and months ahead, I look forward to working 
with TTIC's partner agencies, the Congress and the White House 
to build upon TTIC's strong foundation and create a National 
Counterterrorism Center. The potential benefits of a National 
Counterterrorism Center are enormous. So too, however, are the 
challenges associated with government transformation. I have 
experienced those challenges firsthand over the past 15 months 
in the establishment and development of TTIC. Together, we will 
need to determine how to implement the National 
Counterterrorism Center in a thoughtful and evolutionary manner 
so that we do not adversely affect ongoing activities in the 
global war on terrorism which are so ably led by my colleagues 
on this panel. We all have a special obligation in this regard.
    In conclusion, I believe the benefits to be gained from the 
integration concept, as envisioned by the President and called 
for by the 9/11 Commission, strongly support the creation of a 
National Counterterrorism Center, and I look forward to working 
with you to implement a national counterterrorism system that 
maximizes the security and safety of all Americans wherever 
they live or work. Thank you, Madam Chairman.
    Chairman Collins. Thank you. Mr. Pistole.

 TESTIMONY OF JOHN S. PISTOLE,\1\ EXECUTIVE ASSISTANT DIRECTOR 
FOR COUNTERTERRORISM AND COUNTERINTELLIGENCE, FEDERAL BUREAU OF 
                         INVESTIGATION

    Mr. Pistole. Thank you, Madam Chairman, Senator Lieberman, 
and Members of the Committee. I appreciate the opportunity to 
be here today and to address you. I would like to take a brief 
opportunity to address the work the FBI did with the 9/11 
Commission in my introductory remarks here.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Pistole appears in the Appendix 
on page 77.
---------------------------------------------------------------------------
    As you are aware, the FBI has worked closely with the 9/11 
Commission and its staff, and we commend it for its 
extraordinary efforts. Throughout the process, we have 
approached the Commission's inquiry as an opportunity to gain 
further input from outside experts. We took its critique 
seriously, adapted our ongoing reform efforts and have already 
taken substantial steps to address its remaining concerns. We 
are gratified and encouraged that the Commission has embraced 
our vision for change and recognized the progress that the men 
and women of the FBI have made to implement that vision. We 
agree with the Commission that much work remains to be done and 
will consider its findings and recommendations as we refine our 
continuing transformation efforts.
    Following the September 11 attacks, Director Mueller 
implemented a comprehensive plan that fundamentally transformed 
the FBI with one goal in mind, establishing the prevention of 
terrorism as the Bureau's No. 1 priority. He has overhauled our 
counterterrorism operations, expanded our intelligence 
capabilities, modernized our business practices and technology 
and improved coordination with our partners. In terms of 
priorities, Director Mueller established a clear set of 10 
national program priorities that ensures that all terrorism-
related matters are addressed before resources can be dedicated 
to other priorities.
    To implement these new priorities, since September 11, we 
have increased the number of special agents assigned to 
terrorism matters by 111 percent, the number of intelligence 
analysts by 86 percent and the number of linguists by 117 
percent. We have also established a number of operational units 
and entities that provide new or improved capabilities to 
address a terrorist threat. These include things such as the 
24/7 Counterterrorism Watch or CT Watch, the National Joint 
Terrorism Task Force, the Terrorism Financing Operation 
Section, deployable ``fly teams'' which lend counterterrorism 
expertise wherever it is needed, and we have played a key role 
in establishing the Terrorism Screening Center and Foreign 
Terrorist Tracking Task Force, and of course have added 
substantial assistance to the Terrorism Threat Integration 
Center. We have also created the Terrorism Reports and 
Requirements Section, the Counterterrorism Analysis Section and 
other aspects of the operational side of the FBI which has 
allowed us to perform our duty.
    We also centralized management of our CT program at 
Headquarters to ensure consistency of CT priorities and 
strategy across the organization to integrate CT operations 
domestically and overseas, to improve coordination with other 
agencies and governments and to make senior managers 
accountable for the overall development and success of our CT 
efforts.
    In terms of the intelligence program, the FBI is building 
an enterprise-wide intelligence program that has substantially 
improved our ability to direct strategically our intelligence 
collection and to fuse, analyze, and disseminate our terrorism-
related intelligence. After passage of the USA Patriot Act and 
the issuance of related Attorney General Guidelines, and the 
ensuing opinion by the Foreign Intelligence Surveillance Court 
of Review that brought down the wall that sharply limited the 
ability of law enforcement intelligence officers to share 
information, we quickly implemented a plan to integrate all of 
our capabilities to better prevent terrorist attacks. Director 
Mueller elevated intelligence to program-level status, putting 
in place a formal structure and concept of operations to govern 
FBI-wide intelligence functions and establish Field 
Intelligence Groups--or FIGS--in every field office.
    The new workforce. The FBI is actively working to build a 
workforce with expertise in intelligence. While much remains to 
be done, we have already taken substantive steps to ensure this 
transformation. On March 2 of this year, Director Mueller 
adopted a proposal to establish a career path in which new 
special agents are initially assigned to a small field office 
and assigned to a wide range of field experiences. After 
approximately 3 years, agents will be transferred to a large 
field office, where they will specialize in one of four program 
areas--intelligence, counterterrorism and counterintelligence, 
criminal matters, the traditional work of the FBI or cyber 
matters--and will receive advanced training tailored to their 
area of specialization. We are in the process of implementing 
this new career track now.
    We are also establishing a formal intelligence officer 
certification that can be earned through a combination of 
intelligence assignments and training. When fully implemented, 
this certification will be a prerequisite for promotion to the 
senior ranks of the FBI.
    We have also implemented a strategic plan to recruit, hire, 
and retain intelligence analysts. The bureau has selected 
veteran analysts to attend events at colleges and universities, 
as well as designated career fairs throughout the country. We 
have executed an aggressive marketing plan, and for the first 
time in FBI history, we are offering hiring bonuses for FBI 
analysts.
    In our special agent hiring program, we have updated a list 
of critical skills we are seeking in candidates to include 
intelligence experience and expertise, as well as foreign 
languages and technology.
    We continue to grow the Field Intelligence Groups--or 
FIGs--established in all 56 field offices and are on track to 
add some 300 intelligence analysts to the FIGs in fiscal year 
2004. The FIGs conduct analysis, direct the collection of 
information to fill identified intelligence gaps and ensure 
that intelligence is disseminated horizontally and vertically 
to internal and external customers, including our State, local, 
and tribal partners. We currently have 1,450 FIG personnel, 
including 382 special agents and 160 employees from other 
government agencies.
    It is important to note that the FBI's intelligence cadre 
is not limited to intelligence analysts, but also includes 
agents, language analysts, surveillance specialists, and 
others. It takes all of these specialists to perform quality 
intelligence production at the FBI. The FBI's plan to create a 
cradle-to-grave career path for intelligence professionals at 
the FBI parallels one that has existed and functioned so well 
for our agents and has been codified in our Concept of 
Operations for Human Talent for Intelligence Production.
    To support information sharing, each Joint Terrorism Task 
Force (JTTF) has a special agent or intelligence analyst 
dedicated to producing raw intelligence reports for the entire 
national security community, including State, municipal, and 
tribal law enforcement partners and other JTTF members.
    Understanding that we cannot defeat terrorism without 
strong partnerships, we have enhanced the level of cooperation 
and information sharing with State and municipal law 
enforcement, and through our 84 Joint Terrorism Task Forces and 
dissemination through vehicles such as the FBI Intelligence 
Bulletin, the Alert System, and the Terrorist Screening Center.
    We also improved our relationships with foreign 
governments, in both law enforcement and intel services, by 
building on the overseas expansion of our Legat Program, which 
the Congress has supported so vigorously, by offering 
investigative and forensic support and training, and by working 
together on task forces and joint operations.
    Finally, the FBI has expanded outreach to minority 
communities, and in concert with DHS, has improved coordination 
with private businesses involved in critical infrastructure and 
finance.
    As the Commission points out, we have much work still to 
do, but we have made great progress and continue to move 
forward in accordance with a clear plan. With the support and 
understanding of lawmakers and the American people, I am 
confident we will be successful in completing our 
transformation and ultimately prevail against terrorists and 
all adversaries who do harm to our Nation.
    The FBI looks forward to an ongoing public discussion of 
ways to support further information sharing and collaboration 
in the intelligence and law enforcement communities and thanks 
the 9/11 Commission and this Committee for your service.
    Thank you for inviting me here again today. I look forward 
to any questions you may have.
    Chairman Collins. Thank you. General Hughes.

TESTIMONY OF LIEUTENANT GENERAL PATRICK M. HUGHES,\1\ ASSISTANT 
  SECRETARY FOR INFORMATION ANALYSIS, DEPARTMENT OF HOMELAND 
                            SECURITY

    General Hughes. Good morning, Chairman Collins, Senator 
Lieberman, and distinguished Members of the Committee, I am 
privileged to appear before you today to discuss the role of 
the Office of Information Analysis at the Department of 
Homeland Security and the context of the 9/11 Commission and 
yesterday's announcement by the President to support the advent 
of the National Intelligence Director and the establishment of 
the National Counterterrorism Center.
---------------------------------------------------------------------------
    \1\ The prepared statement of General Hughes appears in the 
Appendix on page 81.
---------------------------------------------------------------------------
    It has been my honor to serve in the U.S. Intelligence 
Community since 1970. During that period, many changes have 
occurred. Many changes have been the focus of our best efforts 
to gather and provide the information our Nation needs to 
defend, protect and sustain our way of life. Many of the 
changes that have occurred, however, have been driven some by 
technology, but many by success and unfortunately some by 
failure. I, personally, believe it is important to remember 
some of the successes over those years.
    Since September 11, we have not had a major attack in the 
United States, but we have seen such events from afar, and we 
know that we can suffer an attack again. I see the next 
evolution of the U.S. Intelligence Community that we are now 
beginning in that long and complex context. What makes this 
period and the changes we are discussing today so important is 
the fact that our homeland is, indeed, directly threatened and 
the consequences of that threat are so critical to our future. 
Thus, we all want to get the details of whatever changes we 
make right. The pathway to the transformation of our 
Intelligence Community is just beginning.
    At the Department of Homeland Security, we are working hard 
to coordinate and integrate the intelligence and information 
necessary to protect our people and our critical 
infrastructure. Our efforts are dependent for success on our 
Federal partners, notably the Terrorist Threat Integration 
Center, the Central Intelligence Agency, and especially in the 
domestic context, the Federal Bureau of Investigation, and on 
our partnerships and interaction with the States, localities, 
and municipalities of our country, the tribal groups and 
interaction with the private sector and, of course, with the 
citizens of this great Nation.
    We still have much work to do, but we have made tremendous 
progress. And the dedication and devotion of duty of those who 
do the work of intelligence at the Department of Homeland 
Security is unparalleled. Our goal will be to continue this 
landmark work by supporting and participating in the National 
Counterterrorism Center and by supporting and working with the 
new National Intelligence Director toward our common purpose to 
defeat terrorists and prevent terrorism here in our homeland.
    Thank you very much for the chance to address you this 
morning. I am looking forward to your questions.
    Chairman Collins. Thank you. Mr. Mudd.

TESTIMONY OF PHILIP MUDD,\1\ DEPUTY DIRECTOR, COUNTERTERRORIST 
              CENTER, CENTRAL INTELLIGENCE AGENCY

    Mr. Mudd. Thank you, Madam Chairman, Senator Lieberman, and 
others here. This is really a privilege to be here today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Mudd appears in the Appendix on 
page 89.
---------------------------------------------------------------------------
    We are now years into a war with the terrorist network 
whose members planned and conducted the attacks of September 
11. With the 9/11 Commission recommendations available to us 
now, we have a critical piece in place that helps us toward a 
better organization of our agencies as they engage in a war 
that is likely to last, in my view, for many years.
    The President yesterday announced in the Rose Garden that 
he will establish a new National Center and take other actions 
designed to continue the process underway since September 11, 
2001, of strengthening America's ability to win this war. I 
believe the President's establishment of this National Center 
will build on the concepts already in place in TTIC and the DCI 
Counterterrorism Center which I help manage. This government 
has the most powerful counterterrorist capability on the 
planet. We must commit to ensuring that we coordinate 
effectively across the government so that we attack and destroy 
this target with a unified approach.
    A National Counterterrorism Center, coordinating across the 
U.S. Government's analytic and other elements, will strengthen 
this effort, in my view. Assigning responsibilities across the 
government through NCTC planning could ensure that missions are 
clear and accountability well-defined. A center that could 
improve the link between foreign intelligence and homeland 
defense would be a valuable addition.
    In short, the Kean Commission is right in focusing on the 
importance of collaboration and cooperation across the 
government and right to ask for an entity that is charged with 
ensuring and facilitating cooperation.
    As the President said, this remains a Nation in danger and 
at war, so as we try to improve our intelligence capabilities, 
I would recommend that we ensure that we protect what works 
well along the way. The President is right in counseling care: 
In the midst of calls for great change, we are prosecuting a 
war with great success. Since September 11, we have made 
strides toward partnerships across and beyond the government, 
including the DHS, the CIA, the FBI, and the U.S. military and 
foreign partners, steps that have given us a powerful weapon 
against this adversary.
    The CIA is a flexible organization, and we operate in that 
fashion so that we can adapt quickly to changes in world events 
or patterns we observe in this enemy. Since September 11, with 
the help of the Congress, we have had more resources to fight 
this war. We have closer collaboration with law enforcement. We 
are supporting not just military units from Washington, we are 
living with them, we are fighting with them, and we are sharing 
intelligence with them on the battlefield. We should look at 
additional change in the context of the substantial change we 
have already undertaken.
    The challenge posed by al Qaeda and its affiliates remains 
daunting. Despite the increase in resources we have committed 
to this mission, the combination of the global reach and 
relentless drive of this enemy means that we are fighting this 
war every day on many fronts, around the globe, with officers 
who are stretched. This war is hot. And due to the operational 
successes of the officers in CTC, the place I manage, and our 
partners in this government around the planet, the volume of 
information we have flowing in is huge.
    We are succeeding against this adversary because of the 
dedication and capability of our officers. I salute these 
officers. They are heroes to me. We also succeed because of 
partnerships we have strengthened in recent years. We have 
joined forces with our colleagues in law enforcement and the 
armed services to make this country safer. We see the results 
today in terrorists dead or captured. That said, this 
adversary, as we saw over the weekend, remains a deadly threat 
to us around the world. And so are other terrorist groups.
    This cooperation I have mentioned across government is 
reflected in the number of detailees from other agencies that 
we have in the Counterterrorist Center and in the way the DCI 
has directed us to fight this war. For example, the Acting 
Director has continued the practice of chairing a meeting each 
evening that includes not only the CIA officers but also 
representatives from other agencies across the U.S. Government. 
Part of what makes that meeting successful is the ability of 
these individuals to reflect the richness of their home 
agencies, each of which brings unique talents, capabilities, 
authorities, and perspectives to the table.
    The alliances we have worked to build during the past 3 
years, including the global relationships that we cultivate, 
are critical. This war requires close cooperation with law 
enforcement and military entities that have capabilities that 
the CIA does not and should not have. As we study proposed 
changes, we need to ensure that change improves our alliances 
with these partners, law enforcement and military, and with the 
Department of Homeland Security, which has helped link us 
critically with State, local, and private sector authorities. 
The details of the Commission's proposals are not specific 
enough for me to judge their impact on our ability, for 
example, to retain close coordination with the officers who 
represent the FBI within the Counterterrorist Center. But what 
I do know is that this partnership with people like the Bureau 
is an integral part of counterterrorism operations and the way 
that the adversary has lost. We need it to continue in the 
Counterterrorist Center and to expand upon it in the new 
National Center.
    Let me offer a few additional thoughts based on CIA's 
experience with counterterrorism operations since CTC was 
founded in 1986. We need clear, clean, short lines of command 
and control. Opportunities to roll up a terrorist or prevent an 
attack demand immediate action. This is a war of speed.
    Analysts in the center are critical to its operations and 
critical to keeping policymakers apprised of current and future 
threats. The synergy between analysts and operations officers 
is the great strength of the Counterterrorist Center, and the 
information-sharing partnership between analysts and operators 
in the CTC could not be stronger. Our analysts reflect the day-
by-day, and sometimes minute-by-minute, pace and scope of our 
operations, and our operators understand the target better by 
virtue of their partnership with analysts.
    This partnership has created a unique fusion: Our analysts 
may write intelligence for the President one day and help 
operators interview a terrorist the next. And we have many who 
do so. Counterterrorism tasks require a combined application of 
knowledge and tools in ways that sometimes do not allow us to 
distinguish between analysts and operators. The center I help 
manage needs officers like these to sustain its energy and 
effectiveness. So as we work to build the new National Center, 
I want to make sure that we enhance the important partnerships 
like the ones we have now in the center.
    My perspective from the trenches of this war is that my 
colleagues and I welcome organizational change that will help 
us accomplish our mission. We welcome a dialogue on what change 
is needed. And, finally, I want to thank you for listening to 
what I have said today about the proposals you are considering, 
and I want to offer from myself personally whatever I can do to 
help you implement this initiative. Thank you.
    Chairman Collins. Thank you. We will now begin a 10-minute 
round of questions.
    Mr. Brennan, I want to start with you. I very much 
appreciate hearing your strong support today for the creation 
of a National Counterterrorism Center which, in many ways, will 
build on the TTIC model. But I want to go back to the statement 
that you made to the Commission in your testimony in April 
where you said that, in your judgment, the Federal Government 
was not ideally configured to deal with the terrorist threat.
    If you were going to design the intelligence structure for 
the U.S. Government, what would you recommend?
    Mr. Brennan. I would recommend that there be an opportunity 
to understand all of the different parts of the U.S. Government 
involved in intelligence. It is an exceptionally complicated, 
complex system of many different components doing various parts 
of the mission.
    One of my concerns is that over the years there has been 
the development of individual initiatives in different parts of 
that community to include individual statutes that have set up 
different types of initiatives and departments that have not 
taken into account fully the overall architecture that needs to 
be in place to make sure that all the different parts of the 
Intelligence Community work together in a fused and integrated 
manner. As the President talked about his support for a 
National Intelligence Director, I think it is taking into 
account the tremendous breadth and depth of the Intelligence 
Community and the need to ensure that there is appropriate 
engineering of the different parts of that complex 
architecture.
    And what my recommendation would be is that just like 
Goldwater-Nichols, which really revamped the entire military 
structure, which took many years on the Hill here--it took 
about 4 years before Goldwater-Nichols was actually passed--
that understanding of those different parts of that very 
complicated system are fully understood and are put together 
and optimize the contributions of each. The 9/11 Commission 
Report provides a high-level view of some of that architecture, 
but there really is tremendous engineering that needs to go on 
to make sure we understand the connections, the intricacies, 
the mutual dependencies that go on.
    So my recommendation is that it needs to take into account 
the many different and, in fact, growing elements of the 
Intelligence Community right now to make sure we do not lose 
any of the synergy and we build upon it. So my comment about we 
are not optimally configured is because we have not taken that 
step back to put together that system of systems that allows 
all those different parts to work together as seamlessly as 
possible.
    Chairman Collins. In your scenario, would you have a 
National Intelligence Director?
    Mr. Brennan. In my scenario, I would have somebody at the 
top who is able to oversee and orchestrate the many different 
elements, like the President raised yesterday, the concept of a 
National Intelligence Director. I don't want to say that would 
be a position like in the diagram shown in the 9/11 Commission 
because I have some disagreements with what is in the 9/11 
Commission Report. I don't think some of those recommendations 
take into account how these different pieces need to fit 
together. But I do endorse the concept of having somebody at 
the top, yes.
    Chairman Collins. Mr. Mudd, I want to get a better 
understanding of how disputes are resolved in the current 
system. It is the issue of who makes the final call when there 
is a dispute over intelligence tasking.
    For example, let's say that the United States has a 
satellite that is trained on Iran and the CIA wants to have 
that satellite moved to oversee a possible new al Qaeda 
training camp in Afghanistan. But the Department of Defense 
says, no, it is really important that it remain trained on 
Iran.
    Under the current system, who resolves a dispute over where 
a satellite should be positioned or where resources should be 
allocated to collect intelligence?
    Mr. Mudd. I am not an expert on satellites. We spend a lot 
more time on human operations. Let me try that same question 
with human operations and give you a perspective.
    I don't see many disputes. I see a lot of conversation, and 
the conversation goes like this: When we are operating 
overseas, typically, if we are in a wartime experience, as we 
are in Afghanistan and Iraq, we provide support to the U.S. 
military with the capabilities we have. When we are running 
foreign operations overseas to collect intelligence and conduct 
covert action, typically that is something that is run by the 
Central Intelligence Agency with the support of other agencies. 
And then when you have domestic intelligence collection 
capabilities, that is typically run and led by the Federal 
Bureau of Investigation with our support.
    So primacy depends on what kind of operation you are 
talking about and where you are operating, but in terms of the 
people sitting at this table, it is quite cooperative. The 
resources----
    Chairman Collins. But who makes the call? Who decides? I 
mean, one of the problems that the 9/11 Commission identified 
over and over again was the feeling that there was not a person 
in charge.
    Mr. Mudd. Again, when we are talking about military 
operations in Afghanistan, the military is running the 
operations; we support. When we are talking about clandestine 
operations under the authorities that we have, which are 
unique, we get support and we run them; we can decide. And when 
we are talking about domestic operations, the FBI does and 
should decide; we support them.
    Chairman Collins. General Hughes, the 2002 Gilmore 
Commission also recommended the establishment of a National 
Counterterrorism Center. But under the Gilmore conception, the 
center would be responsible for fusion of counterterrorism 
intelligence but not for planning of counterterrorism 
intelligence operations. This is a question that I am going to 
ask the entire panel, but I will start with you, Mr. Hughes.
    Should the NCTC have an operational role?
    General Hughes. I think as described in the President's 
vision of the NCTC, there is some connection to the planning 
effort. I hate to characterize it because these are the kind of 
details that have to be worked out, but I believe the idea is 
to have enough planning expertise, especially at the strategic 
level, to oversee the kind of interface that has to occur 
between intelligence operations and intelligence activities and 
the operational activities undertaken by agencies to carry out 
missions.
    Chairman Collins. But in your judgment, should there be a 
planning role? We have a different recommendation from the 9/11 
Commission than the Gilmore report, and what I am asking is, 
given your 30 years in intelligence, do you think that the 
center should have an operational planning role?
    General Hughes. Well, I am not quibbling with the question, 
but I do have to put it in context. The tactical and perhaps 
operational activities should--they have to engage in their own 
planning in order to undertake operations. That is what my 
experience has taught me over the years. But there is a role 
for planning at the strategic level especially to integrate 
features of broad planning that will affect everyone. And to 
that degree, I support the planning role at the National 
Counterterrorism Center. I don't think that we should try to 
centralize the kind of planning and the kind of activities that 
result from that planning at the national level. I believe 
those should be decentralized to the operating agencies. That 
is my personal view.
    Chairman Collins. Thank you. Mr. Pistole.
    Mr. Pistole. Yes, I believe the NCTC should have an 
operational role from the perspective of the planning that you 
mentioned and the development of intelligence requirements, the 
setting of those requirements, identifying gaps that may exist 
in existing intelligence. Where I think the distinction comes 
into play is in the operational execution of that planning.
    For example, if there is a determination that there is a 
lack of intelligence collection in Chicago, for example, 
looking at a domestic issue, concerning Hezbollah, well, then, 
they should turn to the FBI and say we have identified a gap in 
intelligence collection there, we think the FBI should take 
steps to address that. And then the FBI would be responsible 
for implementing the steps that would solve that gap. And that 
would be through additional human intelligence, FISA coverage 
of certain targets. The whole range of investigative activity 
that the FBI currently has would be brought into play to 
address that.
    Chairman Collins. Mr. Brennan.
    Mr. Brennan. I believe that the role of the center as far 
as overseeing some type of joint operational activity has to be 
very carefully crafted from the standpoint of ensuring that 
analysis maintains its independence and its integrity. Analysis 
will inform operations as well as policy, but you want to make 
sure that when you bring them together, you make sure that 
analysis does inform it, but it still maintains its 
independence and integrity.
    Also, you have to be very careful about the types of 
authorities that we give to this planning group and 
responsibilities. The 9/11 Commission Report says that the NCTC 
would assign operational responsibilities but would not direct 
the execution and implementation of those plans. But it says 
that the NCTC would be accountable for tracking the progress of 
the case and ensuring that the plan evolves with it.
    And so I would need to understand better exactly what are 
we talking about there as far as the role of this NCTC, and I 
would also associate myself with Mr. Mudd's comments about 
speed is of the essence. And you want to make sure you don't 
put in place anything that is going to, in fact, hamper the 
ability to move forward very quickly on that type of 
operational activity.
    Chairman Collins. Mr. Mudd, you are in luck because my time 
has expired. Senator Lieberman.
    Senator Lieberman. Thanks, Madam Chairman. Gentlemen, in 
different ways I have gotten to know each of you, to work with 
you some, and I have great respect for each of you. Let me give 
you an impression and invite you to correct if I am wrong.
    My impression from your opening statements and the first 
round of questions that Senator Collins has asked is that you 
don't fully embrace the 9/11 Commission recommendations, which 
would inevitably deprive each of the agencies you represent of 
some of the autonomy you have now because you would be 
accountable, including most importantly in budget, to the 
National Intelligence Director.
    I believe that, as I read the 9/11 Commission Report, to 
take it one step further, in creating the National 
Counterterrorism Center they intend for all of your operations 
to be fused into that center and that you would no longer have 
the separate existence.
    And remember, as Senator Collins has said--and I know you 
have read the 9/11 Commission Report--it is a chilling 
retelling of how September 11 happened, and it is an indictment 
of the status quo. Just to repeat the catch phrases, but they 
mean something, we had a lot of good work going on in 
intelligence, but it was in stovepipes, too much failure to 
share information, and no one in charge. Last Friday, Tom Kean 
and Lee Hamilton said there is still no one in charge, and they 
have still heard examples of one or another of the agencies 
that you represent failing to share with someone else.
    So we are operating in an emergency climate, and obviously 
I want you to say what you think is right, but I also want you 
to deal directly with this appeal from the 9/11 Commission for 
revolutionary change--not unprecedented, very much like what 
Goldwater-Nichols did to the military to force people to work 
together.
    In this case, we are in the middle of a war. We are under 
an imminent threat of attack now. So while we in Congress want 
to do this thoughtfully, we cannot delay very long, no more 
than a military commander in the field whose forces are having 
trouble with a strategy they are following or their 
organization would not change that as quickly as he could to 
turn the tide toward victory.
    The 9/11 Commission recommended a National Intelligence 
Director with control--who is in charge--and they guarantee 
that Director is in charge by giving him or her budgetary 
control over the constituent agencies. The President 
explicitly, according to Andy Card, does not intend to do that. 
I worry that would create a kind of Potemkin National 
Intelligence Director, where you see the facade but there is 
not real authority behind it.
    How do you each feel about the National Intelligence 
Director having budget authority over the agencies you 
represent? Mr. Mudd, since you did not get a chance with 
Senator Collins, I invite you to respond first.
    Mr. Mudd. If I could go back to Senator--no. [Laughter.]
    I think I would say I embrace the panel recommendations. I 
think the National Intelligence Director is a good idea. I do 
think there is a question that has to be answered about the 
difference between coordination and direction, and I think that 
is something that the Congress and the White House and others, 
the Acting Director, should work on in the coming weeks.
    I think there is a lot of work to do. The President 
announced an outline yesterday. I am not quite sure where that 
outline is going, although I think the umbrella ideas that were 
presented on the NID and the National Center are good and 
should be implemented.
    The one thing I would say, which is in my area of 
expertise, counterterrorism, is to return to what I said 
earlier. We need to keep structures that allow us to operate 
with a speed that doesn't give us hours or days but sometimes 
minutes.
    For example--and I will be specific--if you look at page 
404 of the 9/11 Commission Report, in the midst of describing 
what I think is a good idea on the NCTC, there is a description 
of a case study that I think would prevent us from effectively 
engaging the enemy and prosecuting the war. It makes it too 
hard to move quickly. So I would simply say I will leave it to 
others to think about the macro issues. I am not an expert 
there.
    Senator Lieberman. You don't have a position on the budget 
authority in the National Intelligence Director?
    Mr. Mudd. No, I don't, sir.
    Senator Lieberman. Let me just say very quickly in response 
to a question that Senator Collins asked you, part of why I see 
the budget authority in the Director as important is for the 
appropriate allocation of resources. For instance, the Pentagon 
is in charge right now of all the satellites, the imaging, etc.
    It could be--there is a natural tendency for the Pentagon 
to want to use what it controls for its purposes. It might be 
that the National Intelligence Director at a given moment, 
seeing a particular threat of Islamist terrorism coming toward 
our homeland, would want to say, no, sir, we want those 
satellites now focused on this or that imaging focused on this. 
And if the Director does not have that budget authority, I fear 
that the individual stovepipes will, not for evil reasons, just 
for institutional inertia, would focus on their priorities, not 
what may be national priorities.
    General Hughes, maybe with all your experience in so many 
ways, I should ask you to get into this now.
    General Hughes. Well, sir, I too support the National 
Intelligence Director concept, and I think there are many ideas 
here. I will address just the one that you ask about, the 
budget.
    I think it is important to have central authority over the 
resource based and the breadth and depth of the resources 
across the U.S. Intelligence Community focused in a person who 
can allocate, as you said. I think that is vital.
    I don't think we have had major problems in my experience 
in the past. There have been a few cases perhaps where disputes 
have arisen, but generally speaking, the characterization in 
our earlier conversation about working things out has worked. 
But, once again, I associate my views with the others here 
about speed, about precision, about the nature of the threats 
we are engaged in now. And I personally believe that some kind 
of direction from the central authority with regard to the 
allocation of resources and the control of some of the 
budgetary process is vital.
    Senator Lieberman. OK. I appreciate that. Mr. Pistole.
    Mr. Pistole. I think there are compelling arguments both 
pro and con on the budgetary authority. I think the key, in 
addition to that, is that the person, the NID, has the 
authority--and I think one of the things that Andy Card 
mentioned yesterday, one of the key criteria is the access and 
the respect and confidence of the President. And whether that 
means budgetary authority to direct that satellite as outlined 
in the scenario, I think that still the details have to be 
worked out. But I think having that confidence of the 
President, being able to take the direction and be accountable, 
I think that is one of the 9/11 Commission's key 
recommendations, that there is accountability, that there is a 
quarterback in charge, this person having that authority and 
responsibility, if that is delineate in budgetary terms, again, 
compelling reasons for that. If not, then there has got to be 
some reason for saying this is why that is not the case.
    Senator Lieberman. Mr. Brennan.
    Mr. Brennan. As the President said, the National 
Intelligence Director needs to have--be able to oversee the 
national intelligence program and budget, and I fully endorse 
that. And I think it is going to be up to the White House and 
to Congress to actually define what that means as far as 
oversee.
    I would particularly focus on the issue of reprogramming 
authority, be able to move resources during the course of the 
year so we do not have to go through the process, which is 
frequently time-consuming.
    Senator Lieberman. Very time-consuming.
    Mr. Brennan. It is. In addition, though, on satellites, 
moving satellites, there's a difference between needing the 
money to move a satellite and be actually able to have 
programmatic authority on that. The DCI has an Associate 
Director of Central Intelligence for Collection, Charlie Allen, 
who chairs a very well-run National Intelligence Collection 
Board that can move that satellite based on the priorities that 
are identified.
    Senator Lieberman. And that is the kind of authority I 
would like to see the NID continue to have, and I think if you 
give him budget authority, as a few of you have said in one 
degree or another you think he should have, then I think it 
guarantees that authority.
    As I read the 9/11 Commission Report--and we are going to 
have some top staff on later, and I will ask them to clarify 
this--but my reading is that they are recommending that the 
four fusion centers that you represent, plus two more that are 
not here--one at the Northern Command and one in the Department 
of Justice--be eliminated and that all be put together in the 
National Counterterrorism Center. In the Commission's view, Mr. 
Pistole, you personally or the position you hold would become a 
deputy to the National Intelligence Director. But I wonder 
whether you read it the same way I do, that for efficiency in 
operations, in effect, and expense, these six centers would be 
fused into one big National Counterterrorism Center.
    Mr. Pistole. Senator, clearly, there is envisioned an 
integration and fusion of resources in a way that goes beyond 
what exists today. But that is not something, as I think you 
said earlier, that would be separate--there would not be 
separate existence for each agency. Clearly, the intent, I 
believe, is that we have our independent functions as directed 
by an overarching authority. The person that you refer to is 
actually my colleague, the Executive Assistant Director for 
Intelligence, Maureen Baginski, who would be that deputy under 
that format. So the operations of the FBI and the CIA and the 
Department of Homeland Security would all be conducted within 
our agencies, but in a coordinated fashion that has not 
happened.
    Senator Lieberman. My time is up, actually. I will come 
back. I was going to ask if any of you see the 9/11 Commission 
Report as I do, which is they are recommending the end of the 
fusion centers and that they all be fused into one big one. No? 
OK. I take the silence as a negative. We will ask the 
Commission staff how they see the recommendation. Thanks, Madam 
Chairman.
    Chairman Collins. Senator Coleman.

              OPENING STATEMENT OF SENATOR COLEMAN

    Senator Coleman. Thank you, Madam Chairman. Let me first 
start by thanking you for your leadership. It is unprecedented 
that we are here in recess. I don't know if the Senate has ever 
come together on recess to hold Committee hearings before, but 
I want to thank you and Senator Lieberman for the speed with 
which you have moved.
    We are here at a time of war. Sometimes we forget about 
that. We are talking about macro change in the way we handle 
intelligence, but we are at a time of war.
    The 9/11 Commission Report was an indictment of the status 
quo on September 11. And we are going to struggle here with 
figuring out how quickly we can move, whether we can get 
something done before we get out of here in October, how 
quickly do we have to put together some legislation.
    My question, and understanding we are at a time of war, 
understanding that the 9/11 Commission Report is a very serious 
indictment of the status quo on September 11, if we were to 
suffer an attack between now and the election, there is going 
to be another commission, another review of what happened, are 
we going to see another condemnation of the status quo today? 
Mr. Mudd, you talked about substantial change being made. I am 
trying to understand what it is that we have to do to make sure 
that we are maximizing our efforts to protect the American 
people against terrorism. Tell me today, if you can, each of 
you, a very quick assessment of today versus September 11, and 
what is it that you need from us to ensure that the American 
public is protected in a better way than where we are sitting 
right now? Mr. Brennan.
    Mr. Brennan. A lot has happened since September 11. What I 
wouldn't want to have happen is for there to be a tragedy 
because we moved precipitously. I have tremendous respect for 
what the Commission has done, the scholarship shown in the 
report. But I strongly disagree with Governor Kean's comment on 
Friday that the system today does not work. The system today 
works better than it ever has before. The status quo on 
September 11 was certainly insufficient. Could it work better? 
You betcha. We can improve ourselves, and we need to. And that 
is why continuing to change and to go through transformation of 
government is important. But moving precipitously does not take 
into account the tremendous interconnectedness that is the 
result of legacy practices and procedures and statutes over the 
past 50 years. So we have to move thoughtfully, but what I 
don't want to do is, to move and to have a dropped piece of 
information because, in fact, we went through rapid change very 
quickly. And this does not, quite honestly, the 9/11 Commission 
Report, provide the detailed type of engineering blueprint that 
we need in order to undergo that transformation.
    Senator Coleman. Mr. Pistole.
    Mr. Pistole. I think the most significant changes from the 
FBI perspective have been in the areas of the collection, 
analysis, and dissemination of information. The FBI has been 
accused in years past of being a good collector, but not doing 
a good job of analyzing or sharing the information. There has 
been wholesale change in that since September 11, and I think 
our partners here at the table would agree with that based on 
the access to information, for example, through TTIC that non-
FBI personnel have access to FBI files online, people in CTC 
and IAIP at DHS have access to that information. That is a 
clear change from pre-September 11 time.
    What do we need you to do? The key question I think in one 
of the areas is in defining the lanes that each agency has 
responsibility for in terms of this new directorate and this 
NCTC. How does that all flesh out when it comes down to 
operations, where the rubber meets the road? How does that 
actually--how do we take that overseas intel and transform it 
into something here today that we can act on? So that would be 
the key for me.
    General Hughes. The entire organization that I represent is 
reflective of post-September 11 change. We did not exist. We do 
now, and I think tremendous differences have been made. The 
single biggest difference--and one that I think we all ought to 
be both pleased and proud about--is the connection between the 
Federal Government, especially in the intelligence context, the 
information that the Federal Government produces and holds, and 
the State, local, and municipal authorities and the private 
sector. That connection, which we are making more robust every 
day, is vital to our collective success. And I would like to 
offer that as the best possible example of change and 
improvement that has occurred, and I think it is continuing to 
evolve. I don't want to give you the impression I think it is 
perfect. It is not. We have much to do. But the fact is we are 
on the right track in that regard.
    Senator Coleman. Mr. Mudd.
    Mr. Mudd. I think it is fundamental to keep in mind that as 
the adversary changes, so must we. We have to keep changing. We 
cannot say we have reached a point where we are comfortable 
because even if we were comfortable, the adversary will morph.
    That said, I think that the change that we have undergone 
in 3 years has been fundamental, partly because the tragedy of 
September 11 allowed a global coalition of services to be 
galvanized in a way that was not possible before that. The 
world is focused on this target. We are toe-to-toe with the 
target every day.
    Let me mention two things about things that we could use 
help on. First, we talk about resources. This is a war of 
people. Every person makes a difference in this war.
    Second, the thing I fear most and that you can help with, I 
fear that there will be a sense around the world that after bin 
Laden and Zawahri are gone, that we can lose the edge, that we 
can lose our commitment. In fact, I think the dedication to 
maintain the commitment to this fight must be higher after they 
are gone. We are in a war of a generation.
    Senator Coleman. One of the complaints of the Commission 
has to do with this issue of who is in charge, and no one is in 
charge. It is being repeated that no one is in charge.
    Mr. Mudd, as I listened to your testimony, I got a sense--
and the others can respond to this--that what you have now is a 
collaborative relationship. People have their jurisdictions. 
The FBI has their jurisdiction. The CIA has jurisdiction, DCI, 
and Defense have jurisdictions. Hopefully the walls are broken 
down so you are not in that silo effect that the Commission 
condemned and that was part of the problem on September 11. But 
my sense is that rather than having an executive fiat, one 
person saying this is it, what you have is a conversation that 
results in action.
    Two questions for you. The way the present structure is, 
does that facilitate the type of speed that you need? Or could 
you operate more quickly if you had a single person in charge? 
But then the concern that I see is if you had the single person 
in charge, how would you get the minority perspectives? And how 
would you get to the President the contrary analysis from 
someone who is--the decision is made, but someone has got 
something concerning them. How would you see in a structure 
with the single head that information getting through?
    Mr. Mudd. First, I think in terms of thinking about speed--
when I think about the National Counterterrorism Center, I 
think about the essential responsibility of the government to 
ensure that we act with unity of effort. We must have this, 
whether it's in the NCTC or elsewhere, and this is one reason I 
feel so strongly about the proposal. We've got to have unity of 
effort. And that means sitting us all down at the table and 
saying what are we doing.
    In terms of speed, I see that a bit differently, and I 
think the weekend was a good example of this. Whether or not 
you have a planning mechanism, we sit there real time on the 
phone and pass information. This has been one of the things 
that's changed so fundamentally, the thinking about information 
sharing and information exchange in the wake of September 11.
    For example, I hope I'm not speaking out of school, General 
Hughes and I were on the phone last night about passing 
information to local authorities. You talk about 
responsibility. This is not my responsibility. I fully cede 
that to the Department of Homeland Security and the FBI. It is 
my responsibility to act quickly when DHS asks for clearance of 
information. We did that in minutes last night.
    Senator Coleman. Any of the gentlemen want to respond to 
that? Let me then, folks, I want to get to the issue of no one 
in charge. That is a condamnation of what is happening today, 
that somehow decisions are not being made. Can somebody help me 
understand that? Do we have to move quicker? I do not want to 
wait for legislation. If no one is in charge and it is 
impacting the safety and security of Americans today, I want to 
understand that, and I would hope folks would move quickly. So 
help me understand whether the status quo today is somehow 
resulting in decisions not made or a lack of speed in 
responding to existing threats.
    Mr. Pistole. No, Senator, absolutely, at least from a 
domestic perspective, I can speak clearly, that any actionable 
information that we receive--and part of this is the focus on 
the interdependence among our various agencies, that if there's 
overseas intelligence that's gleaned, let's say, from Pakistan, 
the information from the weekend, that translates into action 
the Department of Homeland Security, the FBI takes to follow up 
on. There is no impediment to that action being taken. Whether 
that means the FBI seeking an emergency FISA to go up on 
somebody here in the U.S. that has some connections, whether 
it's the Department of Homeland Security taking actions to 
harden targets, none of that--there are no impediments to that 
action being taken. So the impression, if you have, that there 
are impediments is, I believe, not founded.
    Mr. Brennan. Senator, I would say that you have to define 
what do you mean by in charge of what? The terrorism challenge 
has so many different dimensions from the standpoint of 
operations, investigations, mitigation, defense, analysis, 
collection, integration, etc. It reaches almost every part of 
the U.S. Government. It reaches worldwide. And you know, when 
you think about all of that, to have one person in charge of 
all those things that fundamentally affect the statutory 
responsibilities and authorities in the different agencies and 
departments throughout the government, it is a real challenge 
to try to ensure that there's a system that will ensure that 
there's going to be contrary views that will be able to get up 
to senior policy makers. So again, it's a design issue. What do 
you want to construct architecturally, from a national 
architecture standpoint on the terrorism challenge.
    And the U.S. Government, still I say, is a product of the 
past 50 years of individual initiatives. We have to take a look 
at ourselves and say, how can we best be configured in the 
future?
    Senator Coleman. Thank you, Madam Chairman.
    Chairman Collins. Senator Durbin.

              OPENING STATEMENT OF SENATOR DURBIN

    Senator Durbin. Thank you very much, Madam Chairman, and 
thank you to all of you who are testifying here today.
    Madam Chairman, let me join in the chorus of those who are 
praising you for calling this hearing. It is unusual for us, 
having decided to go about our own business back in our States 
and with our families, to return to Washington. I know 
Washington's glad to see us. We are glad to be here. I cannot 
think of anything more important that we could be doing at this 
moment in time than considering the 9/11 Commission Report and 
our response to it.
    But let us be very candid and honest about the situation 
and the circumstances that we face. We have to make certain 
that we are driven more by September 11 than by November 2. 
This has to be about September 11 and the tragedy that came to 
America, and not about a pending presidential election. We have 
to make certain that the decisions that we make here and the 
process that we follow is one that is extremely serious. It 
took some 20 months for the 9/11 Commission to complete its 
work. The fact that many are urging that we finish our work in 
a matter of hours, I think will not do justice to the task that 
faces us.
    Let me be specific. Mr. Brennan, you gave high praise to 
the President's announcement yesterday, and talked about TTIC 
and what it has achieved. If I am not mistaken, it was January 
2003 when TTIC was originally created, and I believe you were 
brought to head it up in March of that year; is that correct?
    Mr. Brennan. The President announced its creation in 
January. I was brought in to help design it in March. It was 
stood up on May 1 of last year.
    Senator Durbin. I am happy that happened. I cannot see a 
dime's worth of difference between what the President endorsed 
yesterday and what TTIC did or was created to achieve over a 
year ago. And I look at the way that your agency is presently 
being managed, and I salute you for all that you are achieving, 
but I think you would concede that there have been some 
fundamental barriers and obstacles which you have faced, not 
the least of which is the fact that it is a pickup team that 
you are using to run this Agency. It consists not so much of 
dedicated staffers, but those who have been loaned to you by 
other agencies, assignees from other agencies like the FBI and 
the Department of Homeland Security.
    According to a Congressional Quarterly Report last night, 
the White House had hoped to have 300 analysts at TTIC. A March 
2004 report stated it only had 123, 18 from the FBI, 12 from 
the Department of Homeland Security. They expected the FBI to 
produce 65, and Department of Homeland Security to assign 
between 30 and 45. And the simple problem is, there just are 
not enough good people. You have had to pick up staff from 
other agencies to try to move forward. You have reached less 
than half of the assigned staff level that you had hoped for, 
and I think that is an indication that as we talk in glorious 
terms about creating boxes and moving them around an 
organization chart, the final analysis, it is a question of 
having talented and creative people in these agencies doing the 
work.
    The second issue, and one that troubles me, and I raised it 
at the last hearing, is this whole transfer in sharing of 
information. If the 9/11 Commission said nothing else, it said 
we have to reach the point where we are sharing this 
information. As Mr. Mudd said, this is a war of speed. The 
information has to be shared.
    Currently, TTIC, as I understand it, the analysts there 
access intelligence only from their own agency's databases, 
according to the Center's Directors. That means CIA analysts 
must request FBI analysts to check FBI databases and report if 
they find anything of interest. That does not sound like an 
efficient way to protect America.
    So if what the President is suggesting is more of the same, 
dusting off the old press release, we are not getting anywhere. 
I think what the 9/11 Commission challenged us to do was to 
give more authority to this National Counterterrorism Center by 
way of budgeting, by way of staffing, so that we can start 
forcing some merger of not only talented people, but valuable 
information.
    I would appreciate your response, Mr. Brennan.
    Mr. Brennan. First of all, I have to correct the record in 
terms of access to information within TTIC. We have CIA 
analysts in TTIC who are able to access FBI case files through 
their electronic databases and systems. We have FBI analysts 
who are able to access the CIA's operational traffic. So what 
we're doing is trying to ensure an integrated structure there. 
And you're absolutely right, if they only had access to their 
own individual systems, that wouldn't work. That's why we in 
fact have designed a system not to do that.
    Senator Durbin. So is there full integration of the 
databases then of the FBI and the CIA? If you are an FBI 
analyst and you know something that you think is of interest 
that needs to be followed up, to protect America, can you get 
into the CIA database?
    Mr. Brennan. Yes, you can. The issue is what do you mean by 
an integrated database. We have access to these 22 networks, 
and on those networks are countless databases and data 
holdings. What you don't want to do is to mix all of that 
together, because first of all it's not mixable in its current 
form, because individual agencies have designed their systems 
according to their own individual standards.
    Now, what we are doing is bringing those systems in and 
networks in, so we can design an architecture that allows us to 
search against them simultaneously, and in fact, we are doing 
that now. We are not at that stage, but you have to be able to 
do an integrated federated search simultaneously.
    Senator Durbin. I would like to stick with this point 
because I think this gets to the heart of it. The question is 
whether or not we have an overarching architecture where we can 
at some day hope to integrate these systems and to integrate 
the information, and share the information. If I am not 
mistaken, we are currently in the situation where the Border 
Patrol, collecting fingerprints, cannot share them with the 
FBI, some 5 years after they have been tasked to do it. So what 
we have is a lack of integration of this technology base and 
this architecture.
    When I raised this issue in the creation of the Department 
of Homeland Security, OMB screamed bloody murder: This is our 
jurisdiction. You stay away from it. We are the ones who 
integrate architecture of computers. And so we did nothing. I 
am wondering today, when we are talking about what you are 
doing and what we hope to achieve with the 9/11 Commission 
Report, are we finally tackling the bottom line here, that even 
after new titles and new boxes on the organization chart, we 
need the people and the architecture to make this mesh and work 
together?
    Mr. Brennan. Yes, sir. I think you're making the point that 
I made earlier, which is that there needs to be a national 
architecture, from a business process standpoint as far as the 
roles and responsibilities of those different entities, but in 
addition, an information technology architecture. The U.S. 
Government is the product of, again, the past 20 years of the 
revolution that has taken place in information technology. This 
Congress has funded individual initiatives and individual 
agencies. So what we find right now are disparate systems, and 
we're trying to bring it together.
    Senator Durbin. Can you for a moment understand my 
frustration? It is 3 years after September 11. This is not a 
new idea or concept that we would create this architecture, and 
here we are 3 years later, almost 3 years later, saying, boy, 
we are going to have to do this soon, are we not? What has 
stopped us? What has stopped the Executive Branch? Is it the 
Congress? Have we held the Executive Branch back from 
establishing this new architecture so these computers can merge 
their information and make us a safer Nation?
    Mr. Brennan. Senator, the architecture is so complicated. 
You're talking about multi-level security systems, top secret, 
secret, classified, unclassified. You're talking about 
something that touches all different government agencies and 
departments. You're talking about moving information from 
overseas and making sure that it can cascade throughout the 
government and down into the State and local level in law 
enforcement. You're talking about a very intricate and 
interdependent system that is not yet in place. It needs to be. 
The U.S. Government needs to understand how we can make sure 
information moves, but the bumper sticker comments about we're 
not sharing information doesn't take into account the 
complexity of the issue.
    And when I look at the 9/11 Commission Report, the 
recommendation on information sharing is that information 
procedures should provide incentives for sharing to restore a 
better balance between security and shared knowledge. It 
doesn't address any of the issues regarding the technology 
challenges and the tremendous resources required, the policies 
and protocols and procedures that have to be put in place.
    Senator Durbin. Mr. Brennan, with all due respect, 2 years 
ago, when we debated the creation of the Department of Homeland 
Security, I proposed this Manhattan Project to do exactly what 
you suggested. It was stopped by the OMB. It was not approved 
by the Administration. It did not go forward. And today we are 
in the same conversation. I really believe that unless and 
until we make a commitment, a bipartisan commitment to get this 
done, we are going to continue to feel the frustration and be 
unable to offer the protection the American people are asking 
for. Organization charts are important, but the bottom line, 
who is working for the Agency? What tools do they have to make 
America safer? And the most important tool, as I see it, from a 
technology viewpoint, is still something off in the future. 
That to me is troubling.
    I hope this Committee hearing moves us, not only toward a 
better organization chart, but toward putting the people in 
place as well as the equipment in place, technology in place, 
to make it happen. I think that is the thing that troubles me. 
The FBI--I just have a short time--but the FBI computer system 
on September 11 was decrepit. It was embarrassing. I know 
efforts have been made because I have worked with Director 
Mueller, over and over again, to bring more modern computer 
technology to the FBI. I think most Americans would be shocked 
to learn where you were on September 11. I hope things are 
better today. Are they?
    Mr. Pistole. Absolutely, Senator. Tremendous strides have 
been made. There's still a ways to go, but the key is that 
everybody within the FBI and those people who are working to 
access the FBI databases have full visibility of the 
information that previously, as you said, prior to September 
11, simply was not there.
    Senator Durbin. Thank you, Madam Chairman.
    Chairman Collins. Thank you. Senator Specter.

              OPENING STATEMENT OF SENATOR SPECTER

    Senator Specter. Thank you, Madam Chairman.
    I would like to focus for just a moment on the timetable 
which we are going to be following, and offer a slightly 
different perspective than the one which we are moving on at 
the present time.
    The Chairman has gotten national acclaim for having a July 
hearing and a series of three August hearings, unprecedented, 
and deservedly so. Senator Frist and Senator Daschle did the 
right thing in asking for a bill by September 30, and when they 
did that, I think they did it in the context that it was 
mission virtually impossible, but this Committee can do it. I 
have a little different view as to what kind of a timetable we 
ought to be undertaking.
    The month of September is likely to be filled with 
disagreements as we move on the appropriations process, and 
likely to have a continuing resolution from what I have seen in 
my years around here. I think that if we were to turn out a 
bill in early September, and I know that is a mighty tall 
order, but let me give you one person's perspective, that we 
have floor time to take it up and to move ahead with it.
    We have had a lot of experience in the field, and there 
have been a lot of witnesses testifing. I know that from the 9/
11 Commission General Hughes testified and Mr. Pistole 
testified, and you go over the list, virtually everybody has 
testified, Powell, Albright, Cohen, Rumsfeld, Myers, Tenet, 
Berger, Clarke, Freeh, Reno, Mueller, and Ridge, and we are 
going to hear from some of them again, but we have a pretty 
good idea as to what your views are.
    We argued about this when we debated the Department of 
Homeland Security in the fall of 2002. Senator Lieberman and I 
introduced the bill 30 days after September 11. It took a long 
time to get administration support, and then we were debating 
this point about having the new cabinet officer have the 
authority to direct. Many of us have been working on a 
correction to that, because we did not get that authority, and 
it comes in the background where there is a generally 
recognized view that had all of the information been under one 
umbrella, September 11 could have been prevented, and that is 
our charge today, to make sure that does not happen again.
    For the past many weeks Senator Lieberman and I and our 
staffs have been working on a bill, so we have been thinking 
about this for a long time. I have been thinking about it since 
1996 when I had proposed a similar idea in legislation when I 
chaired the Intelligence Committee. Then when the 9/11 
Commission wanted a bill introduced with their provisions, 
Senator McCain and Senator Lieberman were the leaders there, 
and Senator Bayh and I joined them to say we would introduce 
that bill, not saying we agreed with all of it, and it ought to 
be in the public milieu for analysis and decision.
    My own ideas, as I expressed to them last Friday, are to 
disagree with the double hatting. The 9/11 Commission has said 
that the new national Director ought to have subordinates in 
charge of the CIA, the FBI, and Defense Intelligence, which 
would remain in those departments subject to the Secretaries, 
but also responsible to the Director, and maybe that is what we 
ought to come out with. I do not know. It is something that we 
are going to have to consider and we are going to have to 
debate it. At this stage my view is that we ought to take the 
bull by the horns, create this new national Director--and I 
compliment the President for coming out with it--and take the 
counterintelligence out of the FBI, and take a big segment of 
counterintelligence out of the Defense Department--the CIA is 
already separate--and really provide some authority including 
budget authority.
    But the point is, what kind of a timetable are we going to 
be on? And at a time when America is under the threat of 
attack, we are on the spot, and we are doing exactly what we 
should be doing, we are here working. And Senator Collins is 
exactly right when she says we have got to get it right, and we 
cannot do it hastily. We have got to get it right.
    But the legislative process is a long-term process, moving 
beyond what this Committee is going to do, going to the floor 
debate, and a lot of reanalysis. Then it is going to go through 
the House and it is going to go through a Conference Committee. 
We want to get it right, but this Committee is not going to be 
the last word.
    This is not a good analogy, but it has some relevance. The 
Judiciary Committee reported out a bill on asbestos a year ago, 
knowing it had a lot of problems with getting it out of 
Committee to move it along the legislative process. And I can 
see this Committee finishing the hearings in August, and we are 
having more hearings, August 16 and 17. I can see the House 
having hearings. And I can see us having bills. I am going to 
submit one in the next few days for the consideration of the 
Committee. We are going to have the 9/11 Statute. We will put 
the chairs out there, and we will sit down and we will really 
get down to business, and we will start to hear arguments from 
a lot of people who know a lot about this subject, have had a 
lot of experience with it, who are on this Committee, and then 
we will have the floor debate, and then we will have a 
conference. But I can see passing a bill in early October.
    We have passed legislation when we have had to, and that is 
what I would like to offer for consideration by the Committee 
and I have got a call in to the leadership. Our leader is in 
China, so it is a little hard to reach him, to give him my 
ideas as to where we ought to go, but we could move ahead.
    People are going to get very antsy around here in early to 
mid October because of the elections there, and a lot of us are 
up for election. We are going to be here instead of campaigning 
because our duty is to be here, but if we look backwards on the 
clock, I think we can do our job and get it done by early 
October.
    On to the subject matter, General Hughes. You have a lot of 
experience in the field. You were the head of the Defense 
Intelligence Agency, and we had a lot of conversations across 
the table when I chaired the Intelligence Committee in 1996. 
You took over as head of DIA in February 1996. Can the National 
Director of Intelligence run the job he has to do effectively 
without budget authority; and could you have run the Defense 
Intelligence Agency if the budget authority had been in the 
Director of Central Intelligence?
    General Hughes. Yes. I think the National Intelligence 
Director can have budget authority, and the intelligence 
organizations that are subordinate to him in that regard can 
effectively operate. I think it's one of partnerships, however, 
and cooperative interaction, and it does depend a lot--I think 
John Brennan may have said this--about how that is defined and 
what it is that you do with the resource authorities that you 
are given.
    Senator Specter. If you do not have the budget authority, 
how can you set priorities? If you do not have the authority to 
pick the people, is not a national director just a shell game 
and a shell operation?
    General Hughes. Generally, I think you're right. Once 
again, I personally believe that the personnel engaged in the 
work of intelligence for our country should be fungible across 
the intelligence organizations, and indeed, under George Tenet 
that began to occur and is occurring now, that a CIA officer 
can serve the DIA, and a DIA officer can be in the FBI, and a 
FBI officer can be over at the Department of Homeland Security. 
I think that's actually on track to get where you would like to 
see it go.
    What we're talking here, is a little bit different 
category. We're talking about monies that were apportioned out 
of a broad central budget line, and then given for use----
    Senator Specter. General Hughes, I hate to interrupt you. 
My time is almost up, but I am going to be within my time. We 
are going to debate that. That is going to be a hot subject for 
this Committee and the floor, where budget authority goes and 
what we are going to do by way of appointing authority.
    When I took a look at all the people who testified before 
the 9/11 Commission, I am reminded of a comment made by 
Congressman Morris Udall a long time ago. He was at a place 
where members were speaking, and Morris Udall made a comment. 
He said, ``Well, everything has been said, but not by 
everybody.'' And in this context I think everything has been 
said by everybody, so I am going to push an expedited schedule.
    Thank you, Madam Chairman.
    Chairman Collins. Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Madam Chairman. I want 
to compliment you for moving so swiftly on these hearings, and 
thank you for your leadership on this Committee.
    The Governmental Affairs Committee has anticipated and 
focused on national issues that we believe will seriously 
affect the future well-being of our great country. And I want 
to make the point that we should remember, the establishment of 
an intelligence directorate concerned with terrorism is not a 
new issue for this Committee. During the Committee markup of S. 
2452, Senator Lieberman's bill to establish a Department of 
Homeland Security, Senator Levin, Senator Thompson, and I 
worked with Senator Lieberman on an amendment to form a 
directorate of intelligence within DHS as a focal point for 
information relating to the plans, intentions, and capabilities 
of terrorists. Unfortunately, our concept of a directorate of 
intelligence was not included in the administration's bill, 
H.R. 5005, which was enacted to establish the Department.
    As we revisit this subject, I hope that some of the issues 
that we worked out in a bipartisan manner can be implemented 
this time around.
    You have all testified that your respective organizations 
have made great strides since September 11 in the area of 
counterterrorism. You have also testified that you support the 
creation of NCTC and believe that it will build on your current 
capabilities. What specifically are you not able to accomplish 
now that NCTC will? Mr. Brennan.
    Mr. Brennan. The intention and purpose of the National 
Counterterrorism Center is to ensure that we build upon the 
TTIC foundation to ensure even greater integration and 
collaboration across the community. It is bringing it to 
another level, this issue of trying to make sure that there is 
some type of orchestration from the standpoint of the joint 
planning that comes out of the intelligence knowledge that we 
are able to accrue.
    So from the standpoint of making sure that there is this 
orchestration, as well as understanding of what the respective 
roles and responsibilities are, a National Counterterrorism 
Center in fact is going to try to bring into it more of those 
elements throughout the community that are engaged in the 
battle against terrorism.
    Senator Akaka. Mr. Pistole.
    Mr. Pistole. Senator, I believe it institutionalizes some 
of the policies and practices that we are currently engaged in, 
and it gives that ownership and responsibility the 9/11 
Commission addressed, who's in charge, who's the quarterback? 
That's what it provides for.
    In terms of a the day-to-day operations, I think it simply 
allows the clear delineation of who's responsible for what 
activity at what time and it enhances the information sharing 
that we are all working toward, but with having this new 
directorate overall, it again institutionalizes that in a way 
that we don't have.
    Senator Akaka. General Hughes.
    General Hughes. I see it as a place where you can achieve a 
strategy for action that is more difficult if you're dispersed. 
I see it as a place where you can discuss and come to 
conclusions that could be centrally acted upon. And I see it as 
a place to achieve synergy that might not otherwise be 
achievable.
    Senator Akaka. Mr. Mudd.
    Mr. Mudd. The CIA, I think, has three traditional missions: 
That's the collection of information, the analysis of that 
information, all foreign related, and the conduct of covert 
action. We can conduct those in the Center.
    There are things outside the Center that we need help on. 
The first is to ensure that we are all coordinated in action, 
and we need coordination of action. And then the second is to 
ensure that as we look at foreign intelligence, that we fuse it 
with other sources, particularly domestic sources, so the 
President gets one view that reflects what everybody thinks.
    Senator Akaka. One of the justifications for establishing 
the NCTC is to consolidate operations and address the lack of 
information sharing within the Intelligence Community by 
staffing representatives from the various intelligence agencies 
into one cohesive environment. However, we must ensure that 
detailing capable personnel from other agencies and departments 
to staff the NCTC does not undermine the intelligence and 
national security efforts of those entities. Simply putting a 
nameplate on a door will accomplish little unless the offices 
inside are filled with qualified people. My concern with 
staffing the NCTC is my same concern with staffing any Federal 
office--making sure that we have the right people in the right 
place at the right time. I fear that the creation of another 
intelligence center will just worsen the problem.
    My question to all of you is, what is the current state of 
recruitment and retention of skilled analysts and linguists in 
your respective agencies, and are you concerned that the 
creation of the NCTC will lead to the loss of your best 
personnel, which could compromise your agencies' capabilities 
to fight terrorism? Mr. Brennan.
    Mr. Brennan. The Terrorist Threat Integration Center relies 
on the partner agencies to assign analysts to us. So we don't 
do any direct hiring ourselves.
    I am concerned about making sure that we are able to 
optimize the use of every single analyst throughout the 
government. That's why I think it's important that we have a 
framework that we all understand the delineation of 
responsibilities to make sure that any redundancy is thoughtful 
and is intentional, as opposed to non-intentional.
    And so what we're trying to do now is to make sure that we 
understand what our respective roles are because the analytic 
resources are so precious we want to make sure we're able to 
cover the entire horizon of challenges that are out there. The 
last thing I'd want to do is for National Counterterrorism 
Center to deprive analysts from those operations, investigative 
and other elements within the CIA, the DHS, and the FBI, that 
need those analysts to drive their operations and 
investigations appropriately.
    Senator Akaka. Mr. Pistole.
    Mr. Pistole. Yes, Senator. I think the 9/11 Commission 
Report indicated the importance of what Mr. Brennan just 
touched on in terms of having the analytic cadre still close to 
the operations that are ongoing, whether in the CIA, the DHS, 
or the FBI. The challenge as I think you have touched upon, is 
that we all need those analysts, and we are all aggressively 
competing for the best and the brightest to come work for us, 
and then we take those and train them, and assign them, whether 
it's to TTIC or to CTC or perhaps DHS IAIP. So that is one of 
our greatest challenges.
    We have been successful in the FBI of hiring hundreds of 
top flight analysts, but the challenge is to continue with that 
on into the next year, and we've taken great strides, as all 
the agencies have, to do that, but you have touched on one of 
the key points.
    Senator Akaka. General Hughes.
    General Hughes. I think the answer is yes, that there are 
fears about shortage of personnel and competition, and not 
being able to continue the departmental missions if the best 
and brightest of our capability goes elsewhere. That's 
certainly true. It is a very competitive environment, and there 
are very few people that are experienced in regard to the 
Homeland Security mission. So we're trying to build a cadre of 
people, and at the same time deal with the requirements that 
were given to support organizations like the National 
Counterterrorism Center. I believe it's going to take a lot of 
leadership and a lot of consideration of the issues to work 
this out.
    Senator Akaka. Mr. Mudd.
    Mr. Mudd. Sir, you do raise an issue of concern. We're 
dealing with a broad government, but it's a government, and 
when you get right down to it, that has a limited pool of 
expertise, and we share this expertise across agencies, so you 
have to think, as you create one agency or affect another, that 
there is a relatively small pool of people who can do this.
    And I would also mention that on your question about 
recruitment, the ability of--to bring people in is one thing. 
The ability to ensure that you can spend 5, 7, or 10 years to 
develop that person where they can really bring strength to 
target and degrade the enemy, this is a long process, because 
we can't just recruit them. To develop an expert operational 
analytic is a multi-year process.
    Senator Akaka. Madam Chairman, my time has almost run out, 
but again, I want to say thank you for this hearing. It will 
certainly help us assess the capabilities we have and need to 
create. Thank you.
    Chairman Collins. Thank you. Senator Shelby.

              OPENING STATEMENT OF SENATOR SHELBY

    Senator Shelby. I ask that my complete statement be made a 
part of the record.
    Chairman Collins. Without objection.
    Senator Shelby. Thank you, Madam Chairman.
    [The prepared statement of Senator Shelby follows:]
                  PREPARED STATEMENT OF SENATOR SHELBY
    Madam Chairman, I commend you for acting so expeditiously in 
putting together a series of hearings on implementing the 
recommendations of the 9/11 Commission. Especially with the Senate in 
recess and a major election on the horizon, the difficulties of pulling 
this off should not be underestimated.
    Having served on and chaired the Intelligence Committee, I have to 
admit to a certain level of satisfaction at seeing some long-overdue 
measures finally beginning to take shape. As I have pointed out in the 
past, only with the creation of new government entities and the 
reorganization that entails can the United States hope to prevent a 
recurrence of the tragic events of 9/11.
    It is ironic that more than a half-century after passage of the 
National Security Act of 1947, which was itself the product of a 
devastating surprise attack on the United States, one of its key 
provisions may finally come to fruition: The creation of a National 
Intelligence Director. The United States was caught by surprise by the 
Japanese fleet for the same reason we were caught off-guard by the 
terrorist strikes of September 11, 2001. This nation's failure to 
construct an intelligence structure that ensures that information 
reaches those who need it in a timely manner and who have the authority 
to act has been at the core of numerous disasters over the last 50 
years. The work of the 9/11 Commission, though, has provided us with 
the intellectural, moral and political foundation upon which to build 
the requisite governmental structure at last.
    The President's announcement yesterday of his decision to follow 
the Commission's recommendations was mostly welcome news. The President 
has agreed that the Intelligence Community has continued to lack the 
oversight and coordination that was envisioned in the 1947 Act. It 
would be irresponsible in the extreme to not support him in 
implementing this recommendation. Unfortunately, the President's 
proposal omits a key requirement for effective reform: A National 
Intelligence Director must have budgetary authority over the whole of 
the Intelligence Community with the sole exception of military tactical 
intelligence, which should remain the provenance of the uniformed 
services. Those agencies that provide intelligence necessary for 
strategic decision-making must fall under the purview of the new 
Director. The Central Intelligence Agency--once again, the irony 
shouldn't be missed of an agency created to address the shortcomings 
that resulted in Pearl Harbor--should no longer be lead by the same 
individual who oversees the entire community.
    The Director of Central Intelligence had the statutory authority he 
needed, but never the political support to do the intended job. Title 
50 of the U.S. Code clearly stipulates that the DCI had budgetary 
authority over the Intelligence Community. In practice, it never 
occurred. As with the outcome of Pearl Harbor, the events of 9-11 have 
created the political momentum to force the fixes that should have been 
in place decades ago.
    Similarly, the establishment of a National Counter-Terrorism Center 
(NCTC) is the long-overdue reaction to our failure to properly take the 
necessary measures to fix a problem most of us knew about long ago. The 
Terrorist Threat Integration Center (TTIC) was, conceptually, the right 
idea. Problem was, it was the right idea poorly executed. The CIA, for 
which I have tremendous respect, was not the right venue for an 
operation oriented toward protecting the American homeland as well as 
U.S. assets and interests overseas. The insular, highly-secretive 
nature of the CIA was not conducive to the mission of the TTIC, which, 
to be effective, must interact on a daily basis with the FBI, Homeland 
Security, and other organizations.
    Madam Chairman, I again commend you for holding these hearings, and 
look forward to working with you and Senator Lieberman to implement the 
recommendations of the 9/11 Commission. However, I also remain 
committed to ensuring that the actions and reforms we undertake are 
done with thoughtful, measured progress. Taking action simply for the 
sake of taking action will not secure our homeland and it certainly 
will not honor the memory of those who lost their lives on September 
11, 2001.

    Senator Shelby. Some of us over time have proposed the 
creation of a national intelligence directorate to oversee all 
intelligence gathering, someone with total control and 
accountability. That is the budget too. I believe today's 
system, as you have heard many times in your experience, is far 
too disjointed, although you have made a lot of progress. I 
have to concede that.
    I think what we are faced with here today, Madam Chairman--
and you and Senator Lieberman will be in the leadership here is 
that we must make certain the changes we propose 
architecturally here in legislation, will accomplish the goals 
that we set forth. In other words, if we do not accomplish the 
goals, the end game, then we are wasting our time, and we 
cannot afford that. America cannot afford that.
    I think it begs the question, what is the No. 1 problem in 
the Intelligence Community, made up of some 15 agencies, I 
suppose? Is it the lack of gathering of information? Is it the 
lack of analyzing information? Is it the lack of disseminating, 
sharing of information? Or is it all of them? I do not know. 
But all of these questions have been raised from time to time.
    I think Senator Durbin raised an important question 
earlier. What are we going to accomplish here if we put 
together a all-source or whatever you want to call it, 
terrorist center, analysis center, building on what Mr. Brennan 
has been doing, and I think we can learn from that. But what 
will that be? Will it be an entity standing on its own? Will it 
be fed by the other agencies? Will it be the prime entity in 
analysis of information?
    I think it was said earlier that the agencies--and we will 
talk about the CIA, Mr. Mudd. The CIA still would have some 
type if analysis center, you would envision, would you not, 
dealing with terrorist information?
    Mr. Mudd. That's correct. The center I manage is both 
operational and analytical.
    Senator Shelby. What would you envision the CIA having if 
we were to create the big entity for analysis and so forth, in 
other words, a counterterrorism center?
    Mr. Mudd. I'll answer that, sir. I'd like to say, in 
response to what you first raised, which is the question about 
the biggest problem we face. I would say it's people, trained 
people to conduct this war. You can talk about management, 
budget, etc., but getting people to fight the war.
    In terms of what the center does, the counterterrorist 
center that I manage now, and what it should do. The two 
operational capabilities are pretty straightforward. That's the 
collection of information, the conduct of covert action at the 
director of the President. There's also a responsibility, an 
analytic responsibility we have, both to support our operators, 
and that responsibility is very complicated. We haven't talked 
about that much here, but it's difficult to understand. I'd be 
happy to explain later. And to reflect what we know from our 
operational information and other foreign intelligence 
information, via TTIC to the President. TTIC can help us fuse 
other information that's collected, for example, domestic 
information to ensure the President has a panoramic picture.
    But the center I have now has a fabric of operators and 
analysts that I think has proven very effective in the war, and 
I think, in response to a comment earlier about what we 
envision for this, I don't think we envision that the new 
center would control all the operational or analytic assets 
across our community. I think the vision would be that the 
visibility, the transparency across the community, and having a 
place that can coordinate so that we are maximizing limited 
resources exists, and that's why I think we need such a center.
    Senator Shelby. As a big gatherer of information, which 
your agency would do, you could not just gather it and throw it 
out raw doing nothing to it, could you? Because you also are 
tasked with other things at the CIA, not just terrorists, which 
is very important for all of us, and what they would do, how 
they would attack us here or around the world, but other things 
that you deal with. Is that correct?
    Mr. Mudd. I think that's correct. I think what you're 
talking about here is balance.
    Senator Shelby. Balance in millions.
    Mr. Mudd. The fusion mission is critical. It's a mission 
that we cannot--let's be absolutely clear here--we in the CIA 
cannot conduct this ourselves, but we also have other missions 
that go beyond that have led to success in the war that I think 
we should continue. So fusion's important. It's not only 
important to ensure we have people who get a picture 
comprehensively of the data, but it's to ensure the President 
has a picture that doesn't reflect six different agencies 
saying six different things.
    Senator Shelby. General Hughes, at Homeland Security, you 
bring with you, as Senator Specter alluded to, your experience 
at DIA. What do you believe is the No. 1 obstacle or problem 
that we must overcome with your help and the Agency's?
    General Hughes. I have to agree with my colleague, Phil 
Mudd. People and the shortage of people, and especially the 
people who have experience and training. In my endeavor we're 
kind of making that up as we go along, and putting in place 
some training mechanisms. That's our biggest issue. That's my 
direct answer.
    Senator Shelby. Thank you.
    Mr. Pistole, at the FBI you are charged with fighting 
terrorism, and that is a big departure to some extent from what 
you have done in the past. I know you have made progress. What 
is your biggest problem? Is it recruiting the right people, and 
training the right people, as they have said?
    Mr. Pistole. Yes, Senator, that's in large part is the 
greatest challenge. We have an expression in the 
Counterterrorism of the FBI, that we don't have problems, we 
just have opportunities to demonstrate character, and we have 
lots of those opportunities in terms of recruiting, training, 
and deploying the right people. We have thousands of ongoing 
terrorist investigations here in the United States. We need the 
dedicated cadre of people who can focus on those, do both the 
strategic and the tactical analysis that goes with that, and 
then to integrate all of that with our partners here to make 
sure that we have the broad brush. So it is the challenge of 
the people--the personnel.
    Senator Shelby. Mr. Brennan, you bring to the table recent 
experience of setting up a new organization, it has to be 
trained people, people you can train and everything, because 
you cannot wait, can you?
    Mr. Brennan. That's correct, Senator. The concept of a 
shortage of people is a relative one. The more efficient you 
are, the more you can do with the finite number of people, and 
I am an advocate to making sure that we're able to use those 
people as efficiently as possible across the different entities 
involved in terrorism.
    Senator Shelby. Mr. Brennan, according to the President's 
announcement, the new center would subsume the Terrorist Threat 
Integration Center, your center. That of course would entail 
removing a unified, coordinated analysis and assessment 
operation from the CIA basically. What will be the future of 
terrorism analysis within the CIA after this, assuming it moves 
with legislation? In other words, what would the agencies' 
terrorism desks look like after the NCTC is operational?
    Mr. Brennan. One of the things that's important to keep in 
mind is that the Terrorist Threat Integration Center is not a 
part of the CIA. In fact, we are a stand alone entity.
    Senator Shelby. It is just housed there?
    Mr. Brennan. Well, in fact, we moved out to a new facility 
about 4 weeks ago.
    The responsibilities of TTIC, the NCTC, the CIA, and others 
in the future I think has to be part of a framework. I would 
argue that TTIC or the NCTC has to be the center of gravity on 
analysis. And so that there be a clear understanding of what 
the NCTC or TTIC is responsible for. But what we have to do is 
to identify the universe of analytic requirements across the 
government, and then assign responsibility for those different 
parts of that responsibility, just to make sure we understand 
what the CIA will be doing. And so there needs to be a 
framework that we are all going to be operating under, under 
some type of centralized orchestration that I think the NCTC 
can provide.
    Senator Shelby. The USA Patriot Act provided Executive 
Branch agencies more authority, as we all know, to share 
information and to conduct domestic investigations than 
heretofore had been the case. Mr. Pistole, you are right into 
this. With the establishment of a National Counterterrorism 
Center, what additional authorities if any will be needed to 
further remove impediments to information sharing, if you can 
envision this? In other words, what obstacles do you see or 
foresee to bridge the gap between foreign and domestic 
intelligence gathering and sharing?
    Mr. Pistole. As you mentioned, Senator, the USA Patriot Act 
has done great things for the Intelligence Community, law 
enforcement community in that respect. The one issue that 
remains unresolved which we could use your help on is obtaining 
administrative subpoena authority in counterterrorism 
investigations. We have that in drug investigations. We have it 
in health care fraud investigations. We don't have that in 
counterterrorism investigations, which is an impediment to the 
timely collection of documentary information, maybe evidence. 
So that's one legislative fix that would be beneficial for us.
    Senator Shelby. Mr. Brennan, what are two of the biggest 
lessons from your center that would be instructive for the 
future for us to learn as we set up the architecture here?
    Mr. Brennan. First of all, how difficult and complicated it 
is. As I said, I'm a long time proponent of reform, and it's 
one thing to sketch it on a board, it's another thing actually 
to implement it on a day-to-day basis, and so therefore, it's 
very complicated and difficult.
    And second, to make sure that we take into account the 
entire architecture, because what we have found out is that if 
you move something in one part of that architecture, it has 
impact somewhere else where you may not have even anticipated, 
so you may have to make sure that you understand the totality 
of what is being affected.
    Senator Shelby. Madam Chairman, I know my time is up. I 
have a number of questions for the record. Could I submit those 
for the record?
    Chairman Collins. Certainly, without objection.
    Senator Shelby. Thank you.
    Chairman Collins. Senator Dayton.

              OPENING STATEMENT OF SENATOR DAYTON

    Senator Dayton. Thank you, Madam Chairman. I want to join 
with the others in commending you for this hearing, and Senator 
Lieberman, you working together to bring us all together here.
    Director Brennan, you, in your remarks, state that the 
President called for the creation of this integrated center to 
merge and analyze all threat information in a single location, 
which then became TTIC, and then you go on to say that: As 
envisioned by the President, this physical integration of 
expertise and sharing of information enables and empowers the 
key organizations involved in the fight against terrorism. And 
then you go on to say that: Fusion and synergy will be further 
enhanced when the CIA's Counterterrorist Center and the FBI's 
Counterterrorism Division co-locate with TTIC in the coming 
months.
    When is that going to occur and why has that not yet 
occurred if that physical co-location is such an important part 
of your effectiveness?
    Mr. Brennan. Well, as you can imagine, trying to bring 
those three entities together, the TTIC, the Counterterrorism 
Division of the FBI, and the Counterterrorism Center from the 
CIA, requires a physical infrastructure in order to accommodate 
that. We have recently moved into this new building, a new 
facility. We, at TTIC, are there in totality. The FBI and the 
CIA have also started to move their individuals into the 
building. What we are doing is--the Counterterrorism Division 
is still going to be responsible for the operational activities 
that the FBI runs. So it's three parts of this building right 
now that we are moving toward.
    I think what we have to do is look at that in terms of the 
National Counterterrorism Center and to see whatever type of 
modifications might need to be made as a result of that. But 
there's a physical infrastructural requirement whenever you do 
something like this.
    Senator Dayton. You mean the Federal Government did not 
have a building in West Virginia somewhere, where you could all 
immediately move? [Laughter.]
    Mr. Brennan. There are a lot of buildings, sir, but you 
have to make sure it has the connectivity requirements and the 
Oklahoma City Standards, and all sorts of things.
    Senator Dayton. Director Pistole and Director Mudd, that 
neither of you in your remarks mentioned this co-location. Is 
this intended? When will it occur, and is it desirable in fact 
to occur?
    Mr. Pistole. Absolutely, Senator, it is desirable, and 
we're in the process. It's simply a matter of the build-out of 
the different areas. The TTIC area was the first to be built 
out. The Counterterrorism Division, we've moved in less than 
100. We should have that all complete by the end of September 
in terms of all those people from Counterterrorism Division are 
moving out.
    Mr. Mudd. Sir, in terms of the physical location, the issue 
here was simply the setting up of the infrastructure at setup. 
We started moving a few weeks ago. One of the other issues you 
should take note of is that there isn't sufficient space there 
for the entire center that I manage, so one of the difficulties 
we'll have--but I think this is a difficulty we can overcome--
is managing in two places about three miles apart. But it's a 
good idea. We should be talking to each other. I think co-
location is underrated in terms of the importance for 
cooperation, and we have started moving.
    Senator Dayton. So if it is important, why was not a space 
found that could allow your entire operation to co-locate? You 
already have overgrown the space or the space is already 
inadequate for the three operations? I do not understand.
    Mr. Mudd. I look at this as a first step. I mean, again, 
we've spent the last couple years fighting the war. We're 
starting to focus more on future and infrastructural issues.
    Senator Dayton. Just talking about finding a space that you 
would move into that would be sufficient from the outset to 
house all three of the operations that are valuable to co-
locate, as I understand it correctly. Now you are already 
saying that there is not sufficient space in that site to house 
your entire operation?
    Mr. Mudd. That's right. You're talking about thousands of 
people in an infrastructure that's quite----
    Senator Dayton. All the better to move everybody at one 
time into one location.
    Mr. Brennan. Senator, I would just say that there are 
options for expansion there as far as potentially co-locating 
other elements.
    Senator Dayton. Why would you move into a space that is not 
adequate to begin with?
    Mr. Brennan. We needed to move very quickly into a place 
that had the----
    Senator Dayton. Fifteen months.
    Mr. Brennan. There were the options in fact to build out 
there.
    Senator Dayton. It seems to me this is sort of endemic in 
government, and you talk about the need to move swiftly in 
these matters and not to move precipitously, but then to move 
and not even from the outset be moving into space that is 
adequate to bring these three entities which were supposed to 
be co-located according to the purpose of TTIC, starting 
presumably from the outset, or as close to it, and now we are 
15 months later, and two of the entities have not moved in yet, 
and one of the entities is not even going to be able to move in 
its entirety because there is not enough space in the space 
that you are moving into. I just think that is more--very 
counter-productive I would say.
    We have 15 different agencies, entities that are, we're 
told, involved in intelligence gathering operations. Are there 
any of those 15 that in your respective judgments could be 
consolidate or merged?
    General Hughes. I think that the roles and functions can, 
and indeed the National Counterterrorism Center would be a 
reflection of that to some degree. But the departmental 
requirements and the operational requirements at the 
organizational level still have to be accounted for by some 
reflection of an organizational entity in those departments for 
intelligence. So I have thought a lot about that over the 
years, and I think we're pretty much stuck with the kind of 
idea that each organization needs an intelligence entity of 
their own that is immediately accessible to them.
    Senator Dayton. Any of the other three of you care to 
suggest a consolidation or a merger of an entity or agency?
    Mr. Mudd. I am not sure I have a suggestion on the 
consolidation part. I would say looking at CIA capabilities 
that a lot of these are set up by specific authorities from the 
President and via statute. So one of the things I would have to 
consider in looking at that and one of the things that is 
specific to all the agencies we manage is that we do have 
specific responsibilities by law, including, for example, in my 
agency covert action. So if you just say, CIA, go someplace 
else, I would say there are some significant legal issues to 
consider aside from all the cultural and other issues. So that 
is all the comment I would have.
    Mr. Brennan. I would say intelligence reform transformation 
should take into account the broad array of intelligence 
agencies that are out there, and I think one of the worthwhile 
things to do is to take a look and see whether or not there can 
be structural reforms made, because over the years the 
development and the building of different intelligence 
capabilities needs to make sure that it fits into part of a 
broader architecture. And so I would say that it is a 
worthwhile review that needs to be looked at.
    Senator Dayton. Who is going to be able to advise us on 
that?
    Mr. Brennan. Well, I think there are going to be 
discussions as they move forward with the National Intelligence 
Director that is going to take a look at the broad array of 
those intelligence agencies that would fall under that person's 
responsibility.
    Senator Dayton. But you are not prepared today to recommend 
any specifically that could be merged or consolidated of the 15 
agencies?
    Mr. Brennan. I am trying to run TTIC today and prepare for 
the NCTC.
    Senator Dayton. All right. It seems that this is one of the 
dilemmas that we encounter, that if we have these entities and 
they are all going to remain separate and disparate, then we 
are going to have to put another layer of coordination on top 
of the other layers of coordination. That is exactly the 
problem that we run into. As has been said earlier, no one is 
in charge and no one is, therefore, ultimately accountable. And 
it seems that the President's proposal, without budget control 
or personnel control, is going to be subjected to pretty much 
the same outcome in terms of the coordination.
    Let me just ask, and maybe it parallels what Senator Shelby 
just said, but if we could set aside the Commission's report, 
set aside the President's response, what today, if anything, 
needs to be improved? And what is not working that should, or 
what should our end goal be if we make any changes in the 
status quo? I will leave that to the four of you. Is it working 
well enough now that we should, aside from all the publicity 
and attention and everything else, just let you continue to 
operate it the way it is today?
    Mr. Brennan. Senator, I think it is certainly moving in the 
right direction. I think the more fusion of capability and the 
more integration of capability that we can apply against the 
targets and the mission of the U.S. Government's Intelligence 
Community, the better off we are going to be. That fusion 
integration has to take place close to the mission. We have 
tremendous capability within the U.S. Government across all of 
the different collection agencies and analytic agencies. What 
we want to make sure is that we put together a framework that 
really maximizes and leverages those capabilities. And so that 
fusion and integration against that effort is really going to 
be able to be a very strong force multiplier for us, and a 
National Counterterrorism Center is a way to try to bring it 
together as close to the target as possible.
    Senator Dayton. General Hughes.
    General Hughes. I would like to use one word that I think 
probably would solve a lot of the issues we have talked about 
and perhaps some that remain. We ought to strive for greater 
interoperability among us. These disparate organizations have 
been brought together a great deal now by improved 
communications and automation, and I think I agree with John 
Brennan that we are on the right track. But that goal should 
remain foremost in our mind to make us all interoperable so we 
do not have different policies, we do not have different 
capabilities that are somehow disparate and not integrated in 
some way. And that should be our collective goal, in my view.
    Senator Dayton. My time is up, Madam Chairman. Thank you.
    Chairman Collins. Thank you. Senator Lautenberg.

            OPENING STATEMENT OF SENATOR LAUTENBERG

    Senator Lautenberg. Thank you, Madam Chairman. I join the 
others here who commend you for the haste with which you bring 
attention to this matter. And it is for me something that 
Senator Specter said in his recall of the process was a 
valuable introduction, I think, into the discourse and the 
planning.
    I don't think that we ought to create any images out there 
in the countryside that suggest that we are going to be able to 
deliver this complicated package in short order. We are not 
going to find the cookie cutter answer to our problems and say, 
hey, listen, this would do it.
    There are fundamental questions that have not even been 
asked, like: Where are we going to get the people with the 
language capacity? America has never been a place where 
languages have been in the forefront of education, multi-
language training. Even as you search for people to fill these 
positions that we are going to need, we are competing with the 
structure across this country, whether it be in the 
municipalities or the States or places like the port 
authorities that exist around the country, the regional 
aviation authorities, all these people searching, all these 
organizations searching for qualified people, competing with 
the needs that we will have if we restructure this.
    I am not for delay, but I am for thoroughness, I must say. 
I think that it is fair to say that we have had operations that 
have been meaningful, improving our security as we have gone 
along in these last 3 years, what we experienced on September 
11 was such a milestone in the way we view things. And I make 
no excuses for lack of action on data. It crossed two 
Presidents' tenures, etc. But to suddenly think that, well, 
retroactively if we had only pushed Button A, Button B, called 
this one or called that one, we might have prevented this. The 
madness of people who were hijacking airplanes, willing to 
commit suicide, it was unheard of. It was almost the equivalent 
of the dropping of the A-bomb. It was never conceived before in 
mankind, and it changed the world's thinking.
    And I look today at an op-ed piece that was written by a 
colleague of ours, by Chuck Hagel, that appeared in The 
Washington Post. And, Madam Chairman, I want to introduce this 
statement of Senator Hagel's into the record.\1\
---------------------------------------------------------------------------
    \1\ The article appears in the Appendix on page 111.
---------------------------------------------------------------------------
    Chairman Collins. Without objection.
    Senator Lautenberg. And I will take a little moment to 
excerpt some things from what he said: ``But if we allow the 
current national consensus for intelligence reform to become a 
tool in the partisan rancor of Presidential politics, we risk 
doing enormous damage to our Intelligence Community. We must 
not allow false urgency dictated by the political calendar to 
overtake the need for serious reform.''
    And he goes on to say, ``A mistaken impression has 
developed that since September 11, 2001, little has been done 
to improve our intelligence capabilities.'' That is not true. 
He said, ``We are unquestionably a safer Nation than we were 3 
years ago--even as the intensity to hurt us increases all over 
the world.''
    So I think that when Senator Specter talked about the 
process, we cannot ignore it, and we cannot just lay the blame 
on bureaucratic turfdom. That is, in my view, about the weakest 
thing that we could say. People who head these organizations 
are conscientious leaders. They do not want to see any 
Americans killed through neglect or oversight.
    And so we should not jump into this thing without realizing 
that, listen, we have got a huge problem on our hands. We have 
the prospect of a new government coming in in January. I am not 
talking about party. I am talking about just a change in 
government. And you cannot ignore what changes that might 
bring. Will President Bush rethink some of the things that he 
has been unwilling to do now, that is, to allow budgetary 
authority with the new Director of Counterintelligence? Or 
should we consider the fact that maybe like the Federal Reserve 
Bank, a professional executive order be brought in not subject 
to the change in administration, but to have a term of office. 
I have advocated that for a long time for the FAA. Give 
ourselves a chance to work out the long-term projects.
    The understanding that the data upon which this last alert 
was presented is kind of old information. And what does that 
say? And what do we want to accomplish, I ask you in your 
thinking, when we put out an alert like that? Would we want to 
shut down the financial center of the world on the basis of the 
data that we have acquired? Or should we simply move the 
mechanism into place to protect people, and without sending out 
these warnings that you cannot go here, you cannot go there?
    I got calls in my office in New Jersey because a building 
in Newark was identified as a possible target. ``Should I go to 
work today? I have an appointment with my child to go to the 
doctor.'' People are worried sick. And we add to the frenzy, we 
add to the anxiety. But, frankly, I do not think that we add 
much to the security, to the prospect that we would want to 
tell people not to go to downtown Manhattan where the financial 
center of the world exists and operates and is essential to the 
well-being of all of us, not just because of the financial 
consequences but because of the living consequences that take 
place.
    And so I ask, Should we be looking at a fixed term for a 
Director of the National Intelligence? Is that something that 
has ever occurred to any of you? Does anybody want to comment 
on that?
    Mr. Pistole. I can comment, Senator, from the FBI's 
perspective of having a Director with a 10-year fixed term, and 
there is obviously a benefit of that from the perspective of 
independence of administration, in terms of policies, 
procedures. There is obviously a downside depending on which 
way you look at it. But from the FBI's perspective, where we 
strive to be independent in what we do, having a Director with 
a fixed term of 10 years, that transcends administrations, is a 
benefit.
    Senator Lautenberg. Anybody disagree with that? Mr. Mudd.
    Mr. Mudd. My only thought on this is, first of all, sir, I 
don't have strong views on the term. I do believe that whoever 
serves must have the confidence of the President, and I think 
it is important to ensure a mechanism, however that mechanism 
works, to give the President the authority to appoint someone 
who he is comfortable working with.
    The only other thing I would say is, having watched 
Director Tenet over time sacrifice his family, sacrifice his 
time, I do not think 10 years is something you could reasonably 
expect a DCI to do. It is not possible.
    Senator Lautenberg. Would you at all be concerned about the 
possibility that a President could influence decisions that 
might redound to his either personal philosophy or political 
campaigns or things of that nature? Would you suggest that this 
person who would head the national organization be situated 
right in the White House as they gather data from across the 
world and confer exclusively with the President's chief person? 
Or should there be some other means of review? Should the 
Congress be included in a way that is direct and readily 
available?
    Mr. Mudd. Senator, I do not believe that the individual 
should sit in the White House, and I think the President made 
the right decision in that regard. We have a community that has 
spent many decades trying to build a tradition that says we 
should provide unvarnished and unbiased information to the 
President. And I think it is good to keep some air gap between 
the White House and the National Intelligence Director. And as 
I said, I think the President made the right decision in that 
regard.
    Senator Lautenberg. Anybody else?
    Mr. Brennan. I fully agree. I do not think the National 
Intelligence Director should be in the Executive Office of the 
President. There needs to be some independence and separation 
there.
    General Hughes. I certainly share that view, and one of the 
hallmarks of this community has been to be, maybe sometimes 
irritatingly so, independent. We ought to be able to tell the 
truth, unvarnished and unbiased.
    Senator Lautenberg. These questions seem rather elementary 
in their focus, but put them all together, they spell enormous 
complication. And the other thing that I would ask in closing 
is that when we look at distribution of resources, we look at 
the risk in the areas that we are evaluating in terms of 
funding. We have not been able to do that so far.
    Chairman Collins. Thank you. Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks, Madam Chairman.
    A lot of questions have been asked by a lot of Senators 
already. I recall a comment that Senator Specter made earlier 
in his remarks. He led off by quoting Mo Udall, who is one of 
my favorite people. And I did not realize that it was Mo Udall 
who said--what did he say? ``All the questions have been asked 
but not everybody has asked them.''
    I heard another Mo Udall quote last week. A bunch of people 
had gathered at a fundraiser, and he said, ``There is good news 
and bad news.'' He said, ``The good news is we have all the 
money we need in the campaign. The bad news it is in your 
pockets.'' [Laughter.]
    I think the good news here is a lot of good ideas are in 
your minds, and in the minds of those who testified last Friday 
and those who are going to testify after you here today. And 
part of our job is to get that good information not out of your 
pockets but out of your minds and into our own, to a way where 
we can take that information and turn it into a legislative 
form.
    I find value in a panel like this, and particularly with 
the panelists to follow, to help me develop a consensus about 
what is the right path to follow. And we have diverse points of 
view. People have thought about this, worked a lot in these 
fields. There are going to be some areas where you are going to 
agree and some that you will disagree. But what I really look 
for is for areas of consensus.
    When you look at the 9/11 panel's recommendations--the 
parts where you think they got it right and the parts where you 
think they got it wrong--which recommendations do you think we 
should ignore?
    I think I will start off with you, Mr. Mudd, and then we 
will ask General Hughes and Mr. Pistole and others. Thank you.
    Mr. Mudd. I guess what I would do generally as we sort of 
start down this road is to think about questions I would ask 
generally and questions that I thought through as I stepped 
through this. I will try not to be tactical. I will try to be 
strategic. There are two questions, and I think they have been 
raised, to quote Mo Udall, ``have been raised before.''
    The first question, of course, that has been debated 
heavily is the question of authorities, the difference between 
a National Intelligence Director who directs and a National 
Intelligence Director who coordinates. I think that is a 
critical question that I am sure this Committee and others will 
be considering.
    The second question, obviously, relates to how exactly you 
structure the National Counterterrorist Center. Do you 
structure an organization that coordinates? Do you structure, 
as someone suggested earlier, an organization that controls 
everything? I would argue for an organization that coordinates 
myself, but there is clearly room for debate here.
    Those are the two fundamentals. There are some lesser 
issues here, but since those are the strategic issues of the 
day, that is how I think about it.
    General Hughes. I think the Mo Udall quote went something 
like that everything has been said, it just has not been said 
by everyone. And in this case, when you ask a complicated 
question, in a short period of time you want a simple answer. 
It just does not work.
    Some of the ideas and some of the thoughts and the 
Commission's work, which I think is wonderful--I really do. I 
give them tremendous credit, and I think it was great work and 
will serve the Nation very well. But it is complicated, and it 
takes some time and some care to get it right. And I would just 
like to echo things that have been said here before by Members 
and by members of the panel here, and, that is, some of this 
should be thought through very well.
    Kind of on the tail end of your question here, what we 
should not do, I would kind of like to answer it in a positive 
way, if I can. Form ever follows function has been a reasonable 
piece of wisdom that has proven through the test of time to be 
worth considering. If we make the form, we might change some of 
the functions, and so I would like to just ask for everyone to 
consider the possibility that some of these functions are not 
well understood yet, and some of the ideas behind the structure 
have not yet been completely formed or understood, and they 
should be before we put the form in place.
    Senator Carper. Thanks, General Hughes.
    Mr. Pistole. Senator, I think that the one recommendation 
that I would give is to be precise, and by that I mean be 
precise in what the language is, what is developed from that, 
because I think one of the things that we have all experienced 
in this post-September 11 environment is that ambiguity creates 
voids or problems that we all try to solve, and in doing that 
we probably do not work as efficiently as we should as a U.S. 
Government, writ large. And so anything you can do in terms--
whether it is budgetary issues, authority issues, whatever that 
may be, the more precision you can have in delineating 
responsibilities and authorities, the better we will be able to 
carry out those responsibilities in a clear, coordinated 
fashion.
    Senator Carper. Thank you. Mr. Brennan.
    Mr. Brennan. Senator, I think the 9/11 Commission got it 
right at the 100,000-foot level in terms of what they called 
for. In each of the recommendations, it points out what should 
happen. ``Should'' is a very powerful word, but with ``should'' 
comes a number of questions about how it should happen. All 
people should live in harmony. How are we going to actually 
accomplish that?
    So a lot of the ``should's'' here I think are right in 
terms of the end state and the objective. But like Mr. Pistole 
said, there is a lot of precision that is required as far as 
how do you get to that ``should'' end state. And this, for all 
of its scholarship, it really just skims the surface of a lot 
of these very important and complicated issues.
    Senator Carper. Mr. Pistole, let me ask you a question. 
This would, I think, just be for you, and the issue deals with 
dual hatting. Under the Commission's proposals, as I recall, 
there are three deputies the new National Intelligence Director 
would operate through. They would also be deputies in their 
home agencies.
    Now, some have suggested that this just is not workable, 
and people in key positions like these deputies cannot answer 
to two bosses. I think it was the former CIA Director and 
Deputy Secretary of Defense John Deutsch who said--if I 
remember the quote so I get this right, ``Requiring the 
National Intelligence Director to function through three 
double-hatted deputies who would simultaneously be running 
their own agencies would sharply limit his executive authority. 
The National Intelligence Director could become no more 
relevant than the drug czar.''
    Now, as someone who is involved in running your own 
operation within the FBI and also for participating in the 
joint venture of the Terrorist Threat Integration Center, could 
you just please comment for us on how workable or really how 
desirable you think the structure proposed by the 9/11 
Commission is with its double-hatted deputies?
    Mr. Pistole. Yes, Senator, and, again, just to clarify, it 
would be my colleague, Maureen Baginski, who is the Executive 
Assistant Director for Intelligence, who is envisioned for one 
of those three deputy positions, with the possibility of a 
fourth deputy, the Under Secretary for Homeland Security for 
Information, IAIP. That is one of the challenges where that 
precision becomes, I think, very important because if that 
person and the three deputies or four deputies are expected to 
have a full-time job of running their own agencies' operations 
and still have a full-time job of reporting to the Director of 
National Intelligence, that is problematic.
    There is obviously the responsibility of reporting and 
informing which could be done through the mechanism that they 
have set up, but I think the challenge will be in the details 
of what is envisioned by that deputy position. What does the 9/
11 Commission recommend in terms of that responsibility? So I 
think you have hit a good topic on the head there.
    Senator Carper. Well, my last question for each of you, and 
I would ask for just a brief answer. A lot of questions have 
been asked of you. More are going to be asked later today and 
in the weeks to come in this room.
    Give me a question that we have not asked you today that we 
should have. Give me a question that we have not asked today 
that we should have asked.
    Mr. Pistole. If I could just start, that is something that 
most FBI agents ask at the end of an interview of somebody, so 
that is a good approach. But I will defer to my colleagues. 
[Laughter.]
    Senator Carper. Mr. Brennan, give me a question we should 
have asked that we have not?
    Mr. Brennan. ``Are the recommendations of 9/11 workable? 
Are they doable in totality?'' I don't think they are. I don't 
think we would do a service to this Nation if we took these as 
they are stated and ran with them with haste. I just don't 
think that there is sufficient engineering, design, and 
consideration of all the complexities here.
    Senator Carper. Mr. Pistole.
    Mr. Pistole. I would disagree somewhat because I think the 
Commission's recommendations are a blueprint. The question is 
in the details of implementing.
    Senator Carper. General Hughes.
    General Hughes. A similar answer. I would pose the question 
like this: Have we considered carefully the facts that we can 
understand and the unintended consequences and the 
possibilities before we act? Because this is vitally important 
to our security.
    Senator Carper. Mr. Mudd, give me one question?
    Mr. Mudd. ``What are the things we have learned from 
September 11?''
    Senator Carper. All right. Thank you all, and thank you for 
your service to our country.
    Thank you, Madam Chairman. Notice I was the only person on 
the Committee who has not praised you for holding these 
hearings during the middle of our----
    Chairman Collins. And I will remember that. [Laughter.]
    Senator Carper. Well, I will see you--what is it? The 16th?
    Chairman Collins. Yes, you have a chance to redeem 
yourself.
    Senator Carper. I will try.
    Mr. Mudd. I would like to point out, Senator, the panelists 
also have not praised the Chairman, but we will not---- 
[Laughter.]
    Chairman Collins. Senator Levin.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. Madam Chairman, let me begin by heaping 
praise on you and Senator Lieberman for calling these hearings. 
I want to make up for Senator Carper's faux pas. [Laughter.]
    Senator Carper. It is not the first time he has done that 
for me.
    Senator Levin. We created TTIC in order to fuse 
intelligence so that we would have it all coming, relative to 
foreign intelligence, to one place and we could make an 
assessment, that we would avoid the problems that we had on 
September 11 where information that one agency had fell through 
the cracks, was not shared with other agencies. Indeed, in some 
cases it was not even shared within its own agency in the case 
of the FBI particularly.
    Now that we have the TTIC in place. What are the 
shortcomings in TTIC that the new Counterterrorist Center would 
make up for?
    Mr. Brennan. The overall framework that we have talked 
about before----
    Senator Levin. That is too general. I want to get to Mr. 
Pistole's point. Give me real specifically, what do you not 
have that you need?
    Mr. Brennan. We do not have right now the sufficient number 
of analyst managers in order to carry out that primary 
responsibility for terrorism analysis in the U.S. Government.
    Senator Levin. Then you ought to get them.
    Mr. Brennan. Right. And we are in the process of getting 
them now.
    Senator Levin. Fine. Now you have them. Now, is there 
anything that you need that you do not have besides analysts? 
Because the new Counterterrorist Center will have the exact 
same problem. They have got to get analysts, too.
    Mr. Brennan. Right.
    Senator Levin. Other than that issue, which is an issue for 
any center that is going to fuse information, what do you not 
have now that you need, specifically?
    Mr. Brennan. For the TTIC build-out or for the National 
Counterterrorism Center concept?
    Senator Levin. To fuse all intelligence, to give us 
intelligence assessments of foreign terrorists that fuse all of 
the information from all of the sources.
    Mr. Brennan. We are on the path to getting all the 
technology we need to bring together that architecture so we 
can do those federated searches and connect the dots. That is a 
process----
    Senator Levin. You are on that path?
    Mr. Brennan. We are on that path.
    Senator Levin. Will this speed it up if we create a new 
center?
    Mr. Brennan. It will enable it, I believe, as recognition 
that it is the center of gravity within the U.S. Government on 
this.
    Senator Levin. Will it speed up the gaining of technology? 
Will we get it faster if we create a new center?
    Mr. Brennan. If we are going to be talking about a new 
center that is going to have, in fact, more partners involved 
in it, because there are five partners in TTIC. But if we are 
actually going to extend it with a National Counterterrorism 
Center, one of the things we are trying to do is to identify 
the universe of information that is out there that has any 
relevance to terrorism.
    Senator Levin. Is there any reason you cannot extend the 
TTIC to include those other elements?
    Mr. Brennan. We are in the process of doing that right now.
    Senator Levin. All right. Other than what you are in the 
process of doing, what are we going to accomplish by creating 
the NCTC?
    Mr. Brennan. OK, well, that is then a different issue, 
which is putting into this construct then this joint 
operational planning and responsibility and orchestration. That 
is the major difference between TTIC now and this.
    Senator Levin. OK. That is the operational piece. I am not 
talking about that. I am talking about in terms of assessing 
information and intelligence to give us one assessment from all 
sources of all intelligence related to foreign terrorism. The 
assessment side, that is what I am focusing on, because that is 
where the major failures were. The major failures were 
assessments, information that did not get to where it had to 
go, information which was ignored, information which was not 
shared. On the information side, on the assessment side, is 
there anything that this new center is going to do other than 
hopefully have more analysts, which you can get, other than 
adding elements of sources of information, which you are in the 
process of getting, is there anything that it is going to add 
on the assessment side to what TTIC is doing or in the process 
of doing?
    Mr. Brennan. Analysis has many different aspects to it. It 
is not just doing assessments. Those are the finished products 
that go out. It is also empowering the analytical capability 
that is going to empower the operational activities. So, again, 
part of an overall framework that is going to make sure that 
the National Counterterrorism Center is hooked up and provides 
the information and establishes the sharing mechanisms, because 
information sharing is a very complicated issue, to make sure 
that a very sensitive piece of information that the CIA 
collects is able to get to the Department of Homeland Security 
and then beyond to the Federal and State level.
    Senator Levin. You cannot do that now?
    Mr. Brennan. Right now, we are, again, on that path. It is 
a build-up in 14 months.
    Senator Levin. When you get to where you are going, will 
you be able to do the same thing that the NCTC can do?
    Mr. Brennan. Without the operational function. I think that 
is what is envisioned.
    Senator Levin. Exactly right.
    Mr. Brennan. Right.
    Senator Levin. Putting aside operational function.
    Mr. Brennan. Right. I think that was the plan, to keep 
moving forward with the TTIC model.
    Senator Levin. OK. So putting aside the operational side, 
in terms of accumulating, giving assessments and giving 
estimates, you can do the same thing on the path you are on 
when you reach that goal as the projected NCTC can do?
    Mr. Brennan. That is exactly right as far as what our 
analytic capability is going to be able to allow us to----
    Senator Levin. So it is the operational issue which is the 
key question, whether we want to add that to the--or have that 
exist in the NCTC.
    Now, very quickly, if you can, each of you tell us, what 
are the--putting aside the issue of you do not want this new 
entity to go into the Executive Office of the President. You 
have all said that. What are the two top differences between 
your individual views and what the 9/11 Commission has 
recommended? General Hughes, let me start with you.
    Just, specifically, quickly, the two differences that you 
have with the 9/11 Commission, other than you would not put 
this new entity, if we create it, in the Executive Office of 
the President.
    General Hughes. Well, the 9/11 Commission is a broad 
treatment of many problems that now require details to put into 
effect, and those details are not yet present in common 
understanding. That is one.
    Senator Levin. That is not one. I am talking about specific 
recommendations that you disagree with, other than the 
Executive Office of the President issue. There are a lot of 
recommendations.
    General Hughes. Sure. I will give you--I can only give you 
one.
    Senator Levin. That is good. I will settle for one quick 
one.
    General Hughes. The three deputies should not be three, if 
we have deputies, and that's a question we have to discuss. 
There should be four. We are quite different from the Federal 
Bureau of Investigation.
    Senator Levin. All right. You want four deputies instead of 
three. Should they be dual-hatted?
    General Hughes. A very complex issue for me. I, 
personally----
    Senator Levin. Is that a yes or no?
    General Hughes. Yes.
    Senator Levin. Mr. Mudd.
    Mr. Mudd. The specific structure laid out on--I think it is 
Page 413--I agree with Mr. Brennan, I do not believe that 
National Intelligence Director structure is workable.
    Senator Levin. You do not believe what is workable?
    Mr. Mudd. That the structure that is laid out on the 
diagram on Page 413----
    Senator Levin. And what specifically is not workable?
    Mr. Mudd. It is too diffuse an effort, and I am not sure I 
buy the dual-hatted piece myself.
    Second, if there is a vision that every element of 
everything we should do should be consolidated in one center, 
and I am not sure that this actually advocates that, I would 
not support that.
    Finally, and very specific, there is a paramilitary 
recommendation in here that I do not believe we should pursue.
    Senator Levin. Which is to put all of the paramilitary 
activity into the Department of Defense.
    Mr. Mudd. That is correct, sir.
    Senator Levin. Thank you. Mr. Pistole.
    Mr. Pistole. The one that I would question is on the dual-
hatting of the deputies and question----
    Senator Levin. Is there a second one besides that?
    Mr. Pistole. That is the major one, no.
    Senator Levin. And do you agree that the Executive Office 
of the President should not be the place where this is located?
    Mr. Pistole. I think that is a policy matter that I don't 
have a strong opinion on.
    Senator Levin. You were the only one that did not give your 
opinion on that one.
    Mr. Brennan, in addition to what you have already said, 
because you have been very clear about it, specifically, two 
recommendations that you disagree with.
    Mr. Brennan. Again, the structure, I do not think it will 
work. There are issues about the CIA, in terms of what you want 
the CIA to do, and I think that is a very legitimate issue that 
has not been addressed here. They still have all sorts of 
analyses and clandestine services under the CIA, but they have 
taken out paramilitary, and I think the CIA should get back to 
its roots, in terms of clandestine operations activities, 
espionage, covert action, and that should be the focus, and 
that should be the real sort of driver of that U.S. activity.
    Senator Levin. Do you all agree that TTIC right now has the 
primary responsibility for terrorism analysis, except 
information relating solely to purely domestic terrorism? Do 
you all agree with that?
    [Witnesses nodding yes.]
    Senator Levin. By the way, I am glad that is clear because 
Senator Collins, Chairman Collins and I spent a year trying to 
get that statement, as to who has primary responsibility for 
terrorism analysis. It took one year for all of the agencies to 
get that in writing. We are not moving quickly enough, folks, 
if it takes a year, when we are in the middle of a war, for 
four agencies to agree on who has primary responsibility for 
intelligence analysis.
    The intel assessments--I guess this is my last question--
which are now done, the assessments and analyses which are now 
done by TTIC, Mr. Brennan, where do they go from you?
    Mr. Brennan. Depending on what they address, they go many 
different places. There are many different constituencies that 
are out there for the receipt of those assessments. What we do 
is make sure that we have a robust dissemination system, and 
what we in fact have now is something called TTIC On-line, 
which is a top secret website that gets out to people.
    Senator Levin. Do they all go first to the DCI?
    Mr. Brennan. They go simultaneously to hundreds and 
thousands of people.
    Senator Levin. But does the DCI have a role in those 
assessments and in those analyses before you conclude them?
    Mr. Brennan. No. TTIC has the final review authority and 
release authority for those assessments.
    Senator Levin. And so the Director of the CIA and the DCI 
does not influence--well, it could influence--but it does not 
have any role directing, deciding what goes in those analyses 
now and those assessments.
    Mr. Brennan. Since TTIC has stood up, never has there been 
an assessment that has had to go through the DCI.
    Senator Levin. And you understand that would be the same 
with the NCTC or do you not know what that would be?
    Mr. Brennan. That is my understanding as well that the head 
of the NCTC would have that final release authority.
    Senator Levin. Release, but would have no role in terms of 
the assessment or in terms of the analysis.
    Mr. Brennan. Well, the analysis----
    Senator Levin. I am looking for independence. We did not 
have independence.
    Mr. Brennan. Exactly. We want to make sure, especially in 
NCTC, that analytic independence is maintained separate from 
operations and policy considerations, yes.
    Senator Levin. And separate from the National Director?
    Mr. Brennan. As far as the National Director has oversight 
over the entire system, but I think there needs to be, from the 
part of the NCTC head, that analytic, integrity and 
independence that is going to put things out. And that is the 
way it is right now, and I expect it to be that way in the 
future.
    Senator Levin. Thanks.
    Chairman Collins. Thank you.
    I want to thank our witnesses on this panel. You have been 
extremely candid in your assessment and in responding to our 
questions. We appreciate your service. We will be in touch as 
we continue this investigation or examination.
    Yes, Senator Lieberman?
    Senator Lieberman. I just want to add a final word of 
thanks, join Senator Collins in doing that, and to say I was 
very taken with the fact that, in the first go-around, about 
what you are most lacking, each of you said adequately trained 
personnel. And we have got to figure out how to help you 
create, in some sense, a marketing campaign like the old 
``Uncle Sam Needs You'' because intelligence is the front line 
of the war on terrorism.
    And I just believe there is a generation of Americans out 
there who would respond to that call to duty if we frame it in 
the right way. And I hope you will think about that, and you 
will ask us, and your respective agency heads will come back to 
us and ask us for the money to fund that because that is 
critical.
    Chairman Collins. Mr. Mudd.
    Mr. Mudd. Just one comment. We can recruit them, we can 
train them, we just need to have the flexibility with you to 
get enough of them.
    Chairman Collins. Thank you. Senator Shelby.
    Senator Shelby. I have just one observation. Thank you, 
Madam Chairman.
    I think in all major legislation initiatives, there will 
always be winners and losers. The details will come from the 
architecture coming out of this Committee, and it will spell it 
out. I think we need to be very careful as we approach this not 
to weaken or perhaps begin the dismantling of the CIA because I 
think that is very important because the CIA does things for us 
other than just dealing with counterterrorism, which is very 
important.
    And I think, Madam Chairman, as we move along here, we 
better be very careful in that regard.
    Senator Levin. Madam Chairman, will the record be kept open 
for all of us for questions?
    Chairman Collins. It will, indeed. We have another panel, 
just so that people understand that, and the record is going to 
remain open for 5 days for additional questions of these 
witnesses, as well as our second panel.
    Again, I thank you very much for your testimony this 
morning, and I call forward the second panel of witnesses.
    [Pause.]
    Chairman Collins. The Committee will be in order.
    We will now hear from two individuals who, as the lead 
staff members of the 9/11 Commission, have devoted the last 
year and a half to understanding the events that led up to the 
September 11 attacks and our Nation's antiterrorism 
preparedness and response.
    Philip Zelikow is the Executive Director of the Commission. 
He also is director of the Miller Center of Public Affairs and 
is a professor of history at the University of Virginia.
    Christopher Kojm is the Deputy Executive Director of the 9/
11 Commission. He is a former Deputy Assistant Secretary for 
Intelligence Policy at the State Department and served as a 
senior staff member on foreign policy for Representative Lee 
Hamilton, the Vice Chair of the Commission.
    We welcome you here today. We very much appreciate the 
extraordinary public service that you have rendered over the 
past year and a half, and we look forward to your statement.
    Mr. Zelikow, we will start with you.

 TESTIMONY OF PHILIP ZELIKOW,\1\ EXECUTIVE DIRECTOR, NATIONAL 
    COMMISSION ON TERRORIST ATTACKS UPON THE UNITED STATES, 
    ACCOMPANIED BY CHRISTOPHER A. KOJM,\1\ DEPUTY EXECUTIVE 
  DIRECTOR, NATIONAL COMMISSION ON TERRORIST ATTACKS UPON THE 
                         UNITED STATES

    Mr. Zelikow. Madam Chairman, Senator Lieberman, and Members 
of the Committee, thank you for inviting us to appear.
---------------------------------------------------------------------------
    \1\ The joint prepared statement of Mr. Zelikow and Mr. Kojm 
appears in the Appendix on page 96.
---------------------------------------------------------------------------
    This Committee is preparing recommendations to the Senate 
for government reorganization, especially for counterterrorism 
and intelligence. You have already heard from our chair and 
vice chair. They summarized the Commission's recommendations.
    We are here to follow up on specifics, specifics about the 
recommendations, specifics about why the Commission made 
certain choices and specific responses to some of the concerns 
that have been voiced, but before plunging into details, we 
urge you to keep the big picture in view.
    The Commission made recommendations about what to do, a 
global strategy and how to do it, reorganizing the government. 
Today, we do not have a government capable of implementing the 
global strategy we recommend.
    Confronting a 21st Century set of threats, we recommended a 
21st Century set of strategies, and we were compelled to look 
at a 21st Century approach to government. These are not just 
catch phrases. The Commissioners brought vast accumulated 
experience in both the Executive and Legislative Branches of 
Government. I have worked in every level of government--
Federal, State and local--and either for or with almost every 
national security agency we have. Chris Kojm spent 14 years on 
the Hill and over 4 years more as the State Department's 
representative to the Intelligence Community.
    We are practical people, but with our Commissioners, we had 
to think globally, across the world and across America's 
Governments, from a firebase near Kandahar to a firehouse in 
Lower Manhattan. We had to think in time charting the way our 
government has performed yesterday, today, and tomorrow, and we 
had an exceptional opportunity to research, reason, consult, 
and decide what it all meant.
    Returning to that big picture, let us focus for a moment on 
two of our five main organizational recommendations for 
counterterrorism and for intelligence.
    Counterterrorism. The Executive Branch of our government is 
organized in accordance with the best management principles of 
1950. We have large, vertically integrated industrial-sized 
behemoths. What, therefore, happens is that each of the 
agencies does its job and then tries to get others to cooperate 
and vice versa. If they need a lot of help from other agencies, 
they create their own interagency processes.
    The CIA, for instance, runs an interagency meeting at 5 
o'clock almost every day to enlist help in working on the daily 
threats. But that is only the best-known example. Analogous 
meetings occur in meetings run by the FBI, by the Military 
Central Command, by the Military Special Operations Command and 
so on.
    As for intelligence, each major agency tries to build its 
own Fusion Center. This was the basic pattern before September 
11. Take, for example, the Moussaoui case. Moussaoui was 
arrested in August 2001 because of his suspicious behavior at a 
Minnesota flight school. The FBI in Minneapolis took charge of 
the case, worked it hard, and ran into frustrating problems in 
pursuing the investigation.
    None of the senior managers at the FBI heard about the case 
or these problems, but good news--the arrest was brought to the 
attention of the top official at the CIA. DCI Tenet was told 
about the case in late August. ``Islamic Extremist Learns to 
Fly'' was the heading on his briefing.
    We asked him--I asked him--what he did about that. His 
answer was that he made sure his working-level officials were 
helping the FBI with their case.
    ``Did he raise it with the President or with other Agency 
counterparts even at the FBI?''
    ``No,'' he answered, ``with some heat. After all, it was,'' 
he insisted, ``the FBI's case.''
    There is one example of the pattern--vertical integration, 
even a willingness to cooperate, but no joint analysis, not 
joint planning, no connection of the case to the national 
intelligence picture of imminent attack, no involvement by the 
White House. No one there even learned about the case until 
after the September 11 attacks. Other illustrations can be 
found in the report, especially in Chapter 11 and Chapter 8.
    Since September 11, we saw evidence of an enormous 
expansion of effort with more numerous and stronger 
participants, including three unified commands in the Defense 
Department and an entirely new Cabinet Department working in 
the same outdated, redundant and fragmented system, producing 
energetic, often effective, but disjointed analysis and action 
managed by constant improvisation led by a greatly 50-percent 
enlarged White House staff and proliferating interagency 
working cells around the government.
    Since terrorism poses such a revolutionary challenge to old 
ways of Executive management in our national security 
bureaucracy, counterterrorism requires an innovative response.
    Mr. Kojm. One source of inspiration for us was in national 
defense. During World War II, the United States created a joint 
staff that works for the Chairman of the Joint Chiefs of Staff. 
Plans and operations were still mainly formulated by the 
different services--the Army, Navy, Air Force, and Marines--but 
the Joint Staff tried to coordinate their efforts. Experience 
showed this coordination was not good enough. Since the passage 
of the Goldwater-Nichols Act of 1986, the structure has changed 
again.
    The Chairman of the Joint Chiefs and the Joint Staff became 
much stronger. The Joint Staff developed joint analysis and 
joint planning for joint action. Then, those plans were 
directed and executed by combatant commanders or the military 
departments. The military processes are far from perfect, but 
few, if any, commanders would prefer to go back to the old 
model.
    Our recommendation calls for a National Counterterrorism 
Center. The Director of the NCTC should be the President's 
principal adviser on counterterrorism, intelligence and joint 
operations.
    The NCTC Directorate of Intelligence--its ``J-2''--should 
have primary responsibility in the U.S. Government for analysis 
of terrorism and terrorist organizations from all sources of 
intelligence, whether collected inside or outside of the United 
States. It should be the reference source for all source 
information about suspected terrorists, their organizations, 
and their likely capabilities. It should propose relevant 
intelligence collection requirements for action by national and 
departmental agencies inside and outside of the United States. 
It should have primary responsibility in the U.S. Government 
for net assessment and warning about the terrorism danger, 
comparing enemy capabilities with assessed national 
vulnerabilities.
    The NCTC Directorate of Operations--or the ``J-3'' in 
military parlance--should have primary responsibility for 
providing guidance and plans, including strategic plans for 
joint counterterrorism operations by the U.S. Government. The 
NCTC would not break the formal chain of command for Executive 
agencies, just as the Joint Staff today is not part of the 
formal chain of command between the President, the Secretary of 
Defense, and combatant commanders.
    If the heads of Executive departments disagree with the 
joint plan, then the NCTC should accede or take responsibility 
for elevating the issue to the National Security Council and 
the President in order to obtain needed decisions. The NCTC 
should have substantial overall responsibility and 
accountability. It must track cases, monitor the implementation 
of plans and update those plans to adapt to changing 
circumstances inside and outside of the United States.
    Organization of national intelligence. The present 
organization of national intelligence embodies the same 
management weaknesses we identified in counterterrorism, but on 
a much larger scale and touching many other subjects. Our 
report identified various weaknesses.
    President Bush has acknowledged the need for a National 
Intelligence Director separate from the head of the CIA. 
Senator Kerry shares this judgment. We hope you will agree.
    Our recommendations flow from several aspects of the 
September 11 story. In December 1998, DCI Tenant sent a memo to 
the senior managers of the Intelligence Communities saying they 
were at war against bin Laden and his associates. A maximum 
effort was needed. There was no evident response. We critiqued 
the DCI's management strategy for this war, but since he would 
have been hard-pressed to implement even an ideal strategy, 
there was less incentive to devise one.
    We view this recommendation as an enabling, empowering 
idea. There are many particular management issues in the 
Intelligence Community: Reallocating money, improving human 
intelligence, improving the quality of all-source analysis and 
better integrating open-source information. These are just a 
few. Only a modern management structure can enable the 
Intelligence Community to achieve these goals. Only such a 
structure can achieve the unity of effort and efficiency needed 
where funds are not unlimited and hard choices must be made 
across agency lines.
    In national intelligence, the work is done by a number of 
agencies, vertically integrated with weak central direction or 
control. The private sector has increasingly turned to other 
management approaches to get lean, horizontal direction across 
the large operating divisions. This is sometimes called the 
Matrix Management Model. It is employed by firms like Citigroup 
and General Electric.
    In national defense, two innovations were key. One was the 
horizontal direction provided by the Joint Staff, the other was 
the establishment of more powerful unified commands for joint 
action. The military departments had the job of organizing, 
training and equipping the capabilities to be used by these 
joint commands. There are, thus, two lines of authority to the 
Secretary of Defense; one goes to him from the unified 
combatant commands, such as CENTCOM, SOCOM and NORTHCOM. 
Another goes to him from the military departments--Army, Navy, 
and Air Force.
    Another source of inspiration for us was the emerging view 
within the CIA in favor of what one manager called ``the 
integration imperative'' for working on key targets. Some 
writers have called for the creation of ``joint mission 
centers,'' bringing together experts from several disciplines 
working together on a common problem like terrorism or 
proliferation.
    Borrowing some of these ideas from the private sector and 
from government, the Commission thus recommended a National 
Intelligence Director and a different way of organizing the 
intelligence work in the government.
    Mr. Zelikow. The National Intelligence Director should be 
the principal intelligence adviser to the President and the 
National Security Council. Certain authorities must be clear: 
The Director should receive the appropriation for national 
intelligence. Such appropriations are now made in three 
programs: The National Foreign Intelligence Program, the Joint 
Military Intelligence Program, and the Tactical Intelligence 
and Related Activities Program all to the Secretary of Defense. 
These programs should be consolidated into two--a national 
intelligence program appropriated to the National Intelligence 
Director and consisting of the current NFIP and probably much 
of the current JMIP, and a departmental appropriation for 
systems and capabilities that will only be used by the 
Department of Defense.
    The overall appropriation should be unclassified, as should 
the top-line appropriation for the principal intelligence 
agencies. Congress and the American people should be better 
able to make broad judgments about how much money is being 
spent and to what general purpose.
    The Director should have hire and fire authority over the 
heads of the national intelligence agencies and the principal 
intelligence officers of the Defense Department, the FBI, and 
the Department of Homeland Security.
    The Director should be able to set common standards for 
interoperability across the Intelligence Community for 
personnel, in part, to facilitate joint assignments, for 
security, to reduce unnecessary or inadvertent compartmentation 
and for information technology.
    The National Intelligence Director should have two 
principal lines of authority, both crossing the foreign-
domestic divide. The first line of authority should extend to 
National Intelligence Centers organized for joint missions. 
These centers, the unified commands of the Intelligence 
Community, should provide all-source analysis drawing on 
experts from a number of agencies. Guided by their analytic 
work, they should be able to propose collection requirements 
and task assets. Conflicting demands would be resolved by the 
National Intelligence Director.
    The National Intelligence Director's second line of 
authority should extend to the national intelligence agencies 
and the departmental entities that should be the capability 
builders for the Nation's intelligence. They should hire, 
organize, train, and equip the people and operate the major 
systems and platforms.
    The CIA would take the lead in foreign intelligence, 
concentrating on training the best spies and analysts in the 
world.
    The Defense Department would take the lead in defense 
intelligence, honing that craft and acquiring and operating key 
national technical systems.
    The Homeland Security Department and the FBI would take the 
lead in homeland intelligence, harnessing the great potential 
knowledge accumulated in the new department and fostering, with 
the leadership of the National Intelligence Director, the FBI's 
management reforms to improve its performance as an 
intelligence agency.
    In the exercise of the second line of authority, over the 
capability building agencies, we propose that the National 
Intelligence Director would share authority with the department 
head who owns and operates those capabilities for the Nation.
    These key managers, such as the Director of the CIA, should 
be the NID's deputies. These shared authorities exist now, of 
course, in the status quo. In the status quo, the balance of 
authority favors departmental direction, not national 
direction. We propose altering that balance.
    The alternative to shared authorities would be to place the 
capability-building agencies under the authority of a single 
official, in effect, creating a Department of Intelligence. We 
were not convinced of the need to take that further step.
    One issue that has arisen is the question of whether to 
place the NID or the NCTC in the Executive Office of the 
President.
    One, we ask you not to lose sight of the overall goal. The 
authorities of the Director and the organization of 
intelligence work are critical, wherever they reside.
    Two, we recommended the Executive Office of the President 
because of the need for proximity to the President and the 
National Security Council and because of the centrality of 
counterterrorism in contemporary national security management.
    Three, if not put in the Executive Office of the President, 
one alternative would be to create a new agency as a home for 
the NID and the NCTC. Lacking any existing institutional base, 
such an option would require authorities at least as strong as 
those we have proposed or else it would create a bureaucratic 
fifth wheel that would make the present situation even worse.
    Another alternative would be to place the NID and/or the 
NCTC in another existing agency or department, such as the CIA 
or the Defense Department. These alternatives then have their 
own serious drawbacks, such as the risk of confusing the mainly 
foreign responsibilities of the CIA and the circumscribed 
domestic responsibilities of the Defense Department, with the 
broader domestic and foreign span of control being exercise by 
both the NID and the NCTC.
    Placing the NID in the Executive Office of the President 
would have little effect on politicization. Those dangers have 
always arisen from the functions and relationships that go with 
the job, regardless of where the person sits, whether at 
Langley, the Pentagon or in the Eisenhower Executive Office 
Building. Those dangers should be offset by selecting a person 
who believes the President is served by rigorous truth-telling 
and by making the NID and NCTC Director fully accountable to 
Congress.
    To keep the bright line between policy and intelligence, 
there is no substitute for the integrity of the person selected 
for the job, no substitute for probing questions by 
policymakers, and no substitute for rigorous congressional 
oversight.
    In closing, we wish to caution, as Chairman Kean and Vice 
Chair Hamilton did last Friday, against cosmetic change. 
Creating a National Intelligence Director that just 
superimposes a chief above the other chiefs without taking on 
the fundamental management issues we identify is a step that 
could be worse than useless.
    Also, please do not forget the strategy, the substance at 
the heart of our recommendations. Do not forget, though it may 
be the work of others, the other organizational suggestions we 
make, especially in information sharing and for reshaping the 
oversight work of the Congress.
    Many voices will rightly caution you against undue haste, 
but the Commission did not act with undue haste in developing 
these recommendations, as it built on ideas that, in some cases 
have been debated for more than 20 years. President Roosevelt, 
Secretary Stimson, and General Marshall did not act in undue 
haste when they created the Joint Chiefs of Staff to cope with 
weaknesses made evident by war. The Congress and President 
Truman did not act with undue haste in rapidly adopting a 
National Security Act in 1947 that, among other things, created 
a Secretary of Defense vehemently denounced at the time as an 
unnecessary bureaucratic layer.
    A rare opportunity has emerged to recover common purpose 
and take common action across partisan lines, even amid a hotly 
contested election. Such opportunities take the measure of 
leaders. We have been deeply impressed by the readiness of our 
Nation's leaders in both parties to step up and call for prompt 
action. The response of the Congress, of the Senate and House 
leadership and of this Committee has already moved into 
unprecedented ground. You have already stepped beyond what was 
probable to consider what is possible. Thank you.
    Chairman Collins. Thank you for your testimony. All of us 
have scheduling pressures this afternoon, but Senator Specter 
does have a plane that he is trying to catch. So I am going to 
allow him to do the first round of questions.
    Senator Specter. Thank you very much, Madam Chairman.
    Gentlemen, congratulations on a fine report, and 
congratulations to your colleagues on the staff. We know how 
much credit is due the staff, so we thank you.
    Starting with the issue of double hatting, and taking for 
example the double hat in the Department of Defense, you 
already have the very forceful testimony of Secretary Rumsfeld 
in opposition. How can it really work if you have a national 
director telling the deputy in Defense what to do, and the 
deputy in Defense has to respond to the Secretary, and 
inevitably there will be a situation where the Secretary of 
Defense will disagree with the National Director, and will tell 
the deputy in Defense what the Secretary wants? How can that 
person really, as the old saying goes, be accountable to two 
masters? Mr. Zelikow.
    Mr. Zelikow. The accountability to two masters is a 
dominant feature of the status quo, sir. So right now the 
Director of the NSA has two masters. The Director of the NGA 
has two masters. And, boy, they know it. So the problem is not 
whether or not you have two masters or not, it's how you weight 
the power between them.
    We think right now that balance of power is heavily tilted 
towards departmental priorities to the department that owns 
their budget. And we suggest that balance needs to be altered 
so that national priorities are dominant. If there's a 
conflict, sir, then that needs to be taken to the National 
Security Council and the President.
    Senator Specter. It is very ``problemsome'' in my opinion 
to structure reorganization, where you are going to have to 
take the problems to the President. He is a pretty busy guy.
    Picking up on the issue of budget, do you think a National 
Director of intelligence has a chance to be successful, Mr. 
Kojm, if the Director does not control the budget?
    Mr. Kojm. Senator, I think it's highly problematic at best 
if he does not control the budget to conduct the responsibility 
we believe he needs to conduct.
    Senator Specter. Mr. Zelikow, when we talk about splitting 
off the counterintelligence of the FBI, I think that can be 
done. You have the CIA for foreign intelligence. But when it 
comes to the Department of Defense and you have the strategic 
intelligence, how do you structure intelligence in the 
Department of Intelligence Agency so that the battlefield 
issues remain under the control of the Secretary of Defense as 
opposed to the intelligence matters and other lines?
    Mr. Zelikow. I think, sir, you have to avoid disrupting the 
operational control of the executive agencies over their line 
people in the field, and we try to avoid doing that. Sir, the 
problem is this is the problem the private sector routinely 
confronted in the 1960's and 1970's as they adopted the matrix 
organization models that are now commonplace and have been now 
for 20 years in most of the large multinational corporations. 
This was actually innovated a lot in the aerospace industry in 
response to Pentagon demands. They have to preserve the concept 
of unity of effort while responding to multiple bosses.
    And to the credit of the Department of Defense, they 
addressed this issue very clearly and early in the 1980's. They 
have, in effect, a joint staff that provides joint plans, but 
does so without inserting the joint staff into the operational 
chain of command.
    Senator Specter. The issue about putting the National 
Director in the Executive Branch in a nonconfirmed position 
would characteristically not provide for congressional 
oversight which is a very strong recommendation that the 9/11 
Commission has made. Would it be giving up just too much not to 
have--and the President has come forward with a national 
director to be confirmed by the Senate, so you are going to 
have the traditional oversight. How do you reconcile the strong 
9/11 Commission position on tough oversight with the creation 
of a national director who would not be subject to 
congressional oversight?
    Mr. Zelikow. I think we understand the President and the 9/
11 Commission as being in agreement on the issue of Senate 
confirmation of the National Intelligence Director. What has 
not yet been specified is whether the Director of the National 
Counterterrorism Center also would be Senate confirmed. On that 
point the Senate was silent, and the Commission has not been 
silent.
    Senator Specter. Thank you very much, Madam Chairman.
    Chairman Collins. Thank you. Senator Lieberman.
    Senator Lieberman. Why do you not go ahead?
    Chairman Collins. Thank you.
    I want to follow up on the testimony that we heard earlier 
today from the director of TTIC in response to questions that 
Senator Levin raised, and also in my private conversations with 
Director Brennan. It is evident that he has had difficulties in 
getting the resources, particularly the trained experts that he 
needs to staff the center. What would make the scenario any 
different when it comes to a National Counterterrorism Center? 
I think the idea of a fusion center staffed with our very best 
experts is the way to go, but I know from visiting TTIC that 
many of the analysts, while very hard working and bright, are 
extremely young and inexperienced. What would be different 
about the center that would allow it to avoid those same 
problems?
    Mr. Zelikow. Thank you, Senator. I listened to that panel 
too, very impressive officials, outstanding officials. And they 
all described that personnel problem, and it was like four 
doctors all saying the patient has a terrible fever. But then 
you say yes, and what's causing that fever? I mean, why is it 
that they're having these personnel problems? And it's a 
fundamental issue of supply and demand, as demand is 
outstripping supply. Why is demand outstripping supply? It's 
because all the vertically integrated bureaucracies have to 
take first claim on their own, they are creating redundant 
capabilities, and the joint entity has no capacity to attract 
or compel the attendance of the best and the brightest.
    Under the proposal we suggest, backed by the authority of 
the proposed National Intelligence Director and the President, 
the NCTC should be much more likely to recruit outstanding 
analysts, including experts in using single-source information 
like those at the NSA. What TTIC now does is it makes due with 
the analysts other agencies can spare.
    I think there was actually a rather acute question on that 
point that called attention to the disparity between TTIC's 
manpower goals and what it's been able to attain, because first 
the agencies satisfy their own pressing demands, including 
their own fusion centers. You can make those joint assignments 
more attractive to the personnel if you have joint personnel 
policies set across the Intelligence Community that encourage 
and facilitate joint assignments. Personnel standards that we 
propose also should be set by the National Intelligence 
Director.
    Chairman Collins. One of the major differences between the 
proposed center and TTIC is the Counterterrorism Center would 
have a role in operational planning. Your recommendation in 
that regard is different from the conclusion reached by the 
Gilmore Commission back in 2002. That commission also called 
for the creation of a national counterterrorism center, but did 
not give the center, or propose that the center have an 
operational role. That is going to be a major issue for this 
Committee to decide. Would you elaborate more on the 
Commission's belief that the center should have an operational 
role?
    Mr. Zelikow. Yes, ma'am. Two things informed us that were 
unavailable to the Gilmore Commission. First, we studied the 
September 11 story, and problems in transnational operational 
management, as we elaborate in Chapter 11 and other places, are 
just central to that story. Second, we spent a lot of time 
trying to understand how the system is working today, and the 
problems of joint planning and joint operational management are 
actually--they're not terribly visible to Congress because 
they're very much inside the Executive Branch, but they are 
absolutely central.
    If you were to go as we did--and we went at a particularly 
bad time--to Pakistan and Afghanistan, and look at how they're 
working the hunt for bin Laden across agencies on both sides of 
that border with differential legal authorities, and look at, 
well, where is the joint strategic plan for the hunt for bin 
Laden? Where is the person who is in charge every day of the 
integrated strategic plan that updates that plan every day of 
how we're hunting bin Laden?
    There is no such joint integrated plan. There isn't a joint 
integrated planner for that hunt. There is instead a number of 
disparate agencies with different legal authorities all doing 
their thing, and then meeting every day in a series of meetings 
in many places, trying to make it all converge.
    Chairman Collins. I support most of the Commission's 
recommendations, although I may differ on the details. But one 
that causes me considerable concern is the recommendation that 
paramilitary operations be transferred from the CIA to the 
Pentagon. Over and over when I talk to intelligence experts, 
they question the wisdom of that transfer and point out that 
the CIA has an agility that the Pentagon lacks. Why did you 
reach the conclusion that responsibility should be transferred 
to the Department of Defense?
    Mr. Zelikow. Senator, we concluded that the country cannot 
afford building basically two Fort Braggs, one in North 
Carolina and one out of Camp Perry, and that we need to have 
two capabilities to both operate and train people to operate 
crew served weapons, small unit assault tactics and so on. We 
saw in the September 11 story where the CIA--and it's in the 
report--where the CIA took the lead in designing a major small 
unit assault operation, a capture operation in 1998. And 
because the CIA did it, it was regarded as an amateur operation 
and was not seen as credible by national policy makers. It went 
by the Joint Staff, and they said, ``Well, it looks pretty good 
but we take no ownership of it.'' Had the Special Operations 
Commander at the time, General Bocanavan, come in and said, 
``This is my plan and I think it works,'' we think that whole 
capture operation story is a different story.
    I'll add that there are a number of issues which we can't 
get into in open session, having to do with legal authorities 
and operations in the field that are complications.
    I think it's frankly, the culture issues you see is 
basically the elephant versus the gazelle stereotype. The 
problem is those culture issues partly arose precisely because 
of these organizational stovepipes. I think if you--and instead 
we'd say, ``Well, we have to keep those organizational 
stovepipes because these people have evolved into elephants and 
gazelles.'' That's just not, we think, the right management 
approach. I think a better approach would be to try to address 
the culture issues by getting the CIA and DOD cooperating on 
the ground, training exercises and joint planning, so that 
special ops is challenged to develop that kind of agile culture 
working with the CIA, and I think they'll meet that challenge.
    Chairman Collins. Thank you. Senator Lieberman.
    Senator Lieberman. Thanks, Madam Chairman.
    Thanks to the two of you for your extraordinary service to 
the Commission. I must say, I listened very intently to your 
testimony today, and again, I thought it was eloquent. I 
thought it was bold, and I thought it was, for me, ultimately 
convincing, just as the Commission's Report was. You are going 
to need to continue to have all those characteristics, and so 
are Governor Kean and Congressman Hamilton, because you can 
feel the resistance building to the changes, or if not a direct 
confrontation or opposition to what the Commission has 
recommended and embraced, but maybe not with all the details.
    So as I said earlier, I was encouraged by the President's 
embrace of the National Intelligence Director yesterday, but 
troubled that he is reluctant or opposed to giving the director 
the budgetary authority needed to be strong.
    We got some of the same from the panel that preceded you of 
four extraordinary public servants, and yet extraordinary 
within those stovepipes, and I think still reluctant to--I 
believe Lee Hamilton said--smash the stovepipes. The stovepipes 
are now cooperating more, but there is no real coordinating. As 
you just said a moment ago, almost 3 years after September 11, 
there is still nobody in charge of the hunt for bin Laden, not 
to mention the overall Intelligence Community. So we have a 
battle ahead of us, but it is critical that we fight it and we 
win it.
    Let me ask you to comment first on the President's 
statement yesterday, what you understand to be his position on 
budget authority for the NID. Incidentally, General Hughes did 
seem to support it this morning. I appreciated that. A couple 
of the others were uncertain. Then there is some language about 
the Counterterrorism Center in the President's statement that 
seems to suggest action, planning, jointness, but not clearly. 
How do you read what the President said yesterday, and what is 
your reaction to it?
    Mr. Zelikow. And I'd like to ask Chris also to comment on 
this question.
    I saw the President's statement yesterday and the 
elaborations of it as a constructive opening for the 
development of important ideas into concrete detail. I was 
struck by the four panelists this morning at the constructive 
tone they all adopted to the recommendations.
    Senator Lieberman. That is a very good point with regard to 
both the President and the four, that even though there may be 
disagreements and some resistance to your recommendations, but 
we are beginning a dialog here.
    Mr. Zelikow. Yes. And from our point of view, the way 
forward here is not to point fingers, but is instead to look 
for people who want to roll up their sleeves and work together. 
When I heard people's whose work I admire very much say, ``I 
basically agree with what they're trying to do. I have all 
these questions about details. I really want to get into the 
design work,'' that's terrific. Then we can really have a good 
constructive discussion on how to proceed.
    Senator Lieberman. Let me focus the question. John Brennan 
said today that he thought that your proposal was unworkable. 
That was the term that he used.
    Mr. Zelikow. Well, in an earlier answer, he seemed to like 
the NCTC idea very much. It was the overall structure of the 
Intelligence Community and the Goldwater-Nichols structure we 
proposed that I think both he and Mr. Mudd regarded as 
unworkable.
    Look, it's hard. If they have a better solution that they 
would like to propose, a chart of their own, even at the 
100,000 foot level, we'd welcome examining constructive 
alternatives, and comparing and contrasting them, and try to 
find the most attractive features that you judge to be worth 
writing into law.
    Senator Lieberman. But for now you would say that what you 
have recommended is the best you have seen yet?
    Mr. Zelikow. Look, it's hard to actually come out there and 
actually be--and say, ``Here is what we want,'' rather than 
just kind of poke potshots at the weaknesses of other 
proposals.
    Senator Lieberman. But you would not have done your job if 
you did not make specific recommendations. Let me ask you a 
question that Senator Levin asked Mr. Brennan. Apart from the 
absence of joint operational planning, which is clear you are 
adding to the Counterterrorism Center, how will the 
Counterterrorism Center be different from the Terrorism Threat 
Integration Center, TTIC?
    Mr. Zelikow. Well, the intelligence side of it would be I 
think pretty significantly different, but the operations side 
of it is totally different.
    Senator Lieberman. So how would the intelligence side be 
different?
    Mr. Zelikow. On the intelligence side, let me just cite a 
few striking points. First, we all agree that the NCTC and the 
TTIC should be the knowledge bank, primary responsibility, the 
words you fought for for years, Senator Levin, but it would 
draw strategic analysts for this purpose from the present CIA 
Counterterrorist Center, which was a matter left open in a 
letter the administration sent to you. It would draw key 
analysts from the Pentagon as well. I hope you notice that the 
Department of Defense did not sign the letter that was sent to 
you, Senator Collins, and to you, Senator Levin, and did not 
have a witness at the table here today. So it's not clear--I 
think the NCTC would very much see DOD as a full player in 
that.
    Second, we think they would do a much better job of 
recruiting the personnel they need for the reasons I cited in 
answer to a previous question.
    Third, the NCTC would have the net assessment function. 
That job was assigned in the letter sent to you, Senator 
Collins, and you, Senator Levin, to the Department of Homeland 
Security.
    Further, the NCTC should have the power to use its analysis 
to guide collection. You will remember in that same letter that 
you coaxed from the administration, it said it might give TTIC 
such authority, but the mechanism for doing so was going to be 
defined later.
    Our proposal allows NCTC to draw the authority, that 
mechanism, from the authority granted to the National 
Intelligence Director.
    And finally, the current TTIC is of course expressly 
forbidden from being involved in operations, but we believe, 
like the military and diplomats and people in finance and law 
enforcement, that the integration of analysis and action is 
essential to both.
    Senator Lieberman. Mr. Zelikow, my time is up. Let me ask 
you a quick question and ask for a quick answer. I read the 
report as recommending that most of the existing fusion centers 
be eliminated and concentrated in the National Counterterrorism 
Center; was I right?
    Mr. Zelikow. Not entirely, sir. We don't see this as just 
kind of one giant center, the blob that absorbs all the others. 
We instead see this as the center in which you do the strategic 
analysis, but every one of the executive departments will still 
need an intelligence unit to support its executive work.
    So, for instance, let's take the military analogy. The 
military is going to conduct an operation. It has a J-2, an 
intelligence unit attached to the unit in the field. It draws 
information from the knowledge bank, say, in the case of ground 
operations, the National Ground Intelligence Center, that is 
the institutional memory of the Army about geography, the enemy 
order of battle. It draws what it needs from the knowledge 
bank. It uses its own intelligence unit to support operations, 
and then from what it learns in that operation, it passes 
information back to be deposited in the knowledge bank for 
future reference by another operator.
    So the key executive departments still need their own 
intelligence support, their own J-2s, in effect. And that's 
quite right. The CIA CTC will turn into that. It will become 
the DO targeting center in a way that it really has been for 
most of its history. But you still have the central--there 
would be no question as to who has responsibility for strategic 
analysis and institutional memory.
    Senator Lieberman. Thank you. Thanks, Madam Chairman.
    Chairman Collins. Thank you. Senator Coleman.
    Senator Coleman. Thank you, Madam Chairman.
    I am trying to sort out whether we are operating at 10,000 
feet here or whether we are operating on the ground. I must 
tell you that I do not know right now. I came to this with an 
openness to support a National Intelligence Director. We can 
have debates about budget authority and where it is placed. I 
share Madam Chair's concern about the recommendations regarding 
paramilitary operations. My comment on that is I think we need 
to be careful in all this discussion of reflecting on the 
context in which we are operating. In 1998 context, clearly you 
are going to have the problems that, Mr. Zelikow, you 
expressed, but I do not know if that is the case today. What I 
heard from the panel before was every one of them saying we 
have changed the way we operate, we have changed the way we 
think. And I think we have to keep that in mind. We cannot be 
going back to 1998 reality to construct a 2004-2005 solution.
    The other concern I have is what I heard from that other 
panel, is that the problems are not structural problems, they 
are human problems, and a great concern about form following 
function, and what we have here--excuse me--actually, function 
following form. You have got, here is the structure now. This 
is going to change the way in which we operate. I must comment 
that--and I raised the question--I did not hear a single thing 
from the panel today that says we are not doing something we 
should do, that is critically impacting national security 
because we do not have this new structure. We can do some 
things perhaps a little better. We need to reflect on it.
    But I did not hear, particularly in regard to this question 
of no one in charge, I did not hear from anybody today that 
there is something that we are missing because we do not have a 
National Intelligence Director. So I think we just have to be 
careful as we analyze this thing, what is it that we are 
getting? My concern is will we be able to do that in a month?
    Let me raise one other issue though, and that is the 
congressional oversight function, because it is very clear from 
this report that congressional oversight is critical, is 
absolutely key. The question I have is do we have the capacity 
to do that? I would like to have a better understanding from 
you of what kind of time, what kind of effort, what kind of 
focus are Members of this body supposed to have to do the kind 
of job that you expect them to do to make this work?
    Clearly, in the past--we have a lot of committees we serve 
on, we have a lot of things that we do. We have a Committee 
that people put time and energy into, but clearly the type of 
oversight that is required has not been done in the past. So 
help me understand better what you are really expecting from 
Members of this body to do the kind of job that you think they 
need to do to perform the kind of oversight function you are 
expecting of this Congress.
    Mr. Kojm. Senator, let me start on your personnel question. 
We on the Commission share the view that the most important 
thing is the people, and getting the right people and giving 
them the right training. We began our recommendations precisely 
on this point, and nothing is more important than recruiting 
and keeping and rewarding such people in government.
    This is also why we believe the National Intelligence 
Director must have control over personnel policies. We've got 
many different policies across the Intelligence Community, many 
policies across Executive Branch agencies. At least with the 
Intelligence Community we surely need to draw these policies 
together precisely so we can achieve the objectives you 
outline.
    The panel this morning talked about conversation and 
cooperation. That's all important, and that's all highly useful 
and puts us in a far better place than we were 3 years ago. But 
we still do believe that alone is not enough to meet the 
national security challenge in front of us, and we still do 
believe in the importance of a quarterback calling the signals.
    Let me turn to your question about oversight. Both the 
Chair and Vice Chair, Kean and Hamilton, if we had to sum up in 
one word, they believe stronger powers in the Executive Branch 
for the National Intelligence Director, for the 
Counterterrorism Center, but equal powers, stronger powers of 
oversight, to keep the very checks and balances that I know so 
many members of this panel have already cited as important.
    How is oversight well done? Well, I think there's a very 
good example on this Committee. Its oversight panel has done 
superb work over many years, and even though it has not had a 
day-to-day focus on the budget, the oversight panel of this 
Committee has come up with hallmark proposals and things that 
work their way into legislation that have made a real 
difference for this country.
    I am presumptuous in telling this panel that oversight work 
is hard. You all know that, and you do it quite well. I think 
our single point would be is you need single committees dealing 
with single problems. The homeland security issues just cover 
so many committees across government. The intelligence panels 
don't have all the powers that they need to get their job done.
    One can dispute whether it should be a joint panel or 
combining authorization and appropriation. We just want you to 
come away with the central point, stronger oversight 
committees, and we leave it to the experts to design them.
    Thank you.
    Senator Coleman. Just to follow up in the 30 seconds I 
have, and maybe I need more time than that. Would it be fair to 
say that oversight in the past failed, that we did not have the 
kind of oversight that we need today?
    Mr. Kojm. With respect to the Intelligence Community and 
its 15 elements, it's hard to do that oversight task 
responsibility well and correctly, and we know that the 
committees worked hard at it, and did, I am convinced, to the 
very best of their ability. I think our point is not to 
criticize actions of the past, but to set up structures for the 
future that can enable good people working hard to accomplish 
those goals. Thank you.
    Senator Coleman. Thank you, Madam Chairman.
    Chairman Collins. Thank you. Senator Akaka.
    Senator Akaka. Thank you very much, Madam Chairman.
    One of the issues raised in the 9/11 report is a lack of 
skilled analysts, especially in the area of foreign languages, 
available for recruitment by the Intelligence Community. I was 
interested to hear from each of our witnesses on the first 
panel that recruiting, training and deploying skilled personnel 
is their most pressing need. I agree with their assessment, 
which is why several of us on this Committee have offered 
legislation to address the need to hire people to fill the 
void.
    The Senate has passed our bill in November 2003, which has 
not been acted upon by the House. I hope my colleagues will 
join me in my effort to encourage the House to take up S. 589.
    I would like to follow up on something you said earlier. 
You stated that the NCTC will not have the same personnel 
problems as the TTIC because it will likely have the ability to 
recruit the best and the brightest people before they go to the 
other intelligence agencies. Are you concerned that this will 
deplete the number of qualified personnel at organizations like 
the CIA and the FBI?
    Mr. Zelikow. Senator, I would like to more optimistically 
envision a world of fruitful competition. You may remember 
there was a time when no self-respecting, high-flying military 
officer wanted to work on the Joint Staff. Now it is 
indispensable for the high-flying military officer to get an 
assessment on the Joint Staff. Now, that does not mean that the 
Air Force feels it cannot find good officers anymore. So you 
want to create incentives for joint work.
    But beyond that, measures perhaps like your legislation, 
Senator, need to be taken to change the whole supply-side 
equation. Senator Coleman, you asked, How does having a 
National Intelligence Director make a difference? It makes a 
difference because then you have a management strategy, maybe 4 
or 5 years ago, that addressed the supply side of the equation. 
I earlier talked about the demand side. Everybody wants people. 
The supply side of the equation means years ago you had said we 
are confronting Islamist terrorism. What is our personnel need 
going to be for that? What kind of resources and language 
training slots and the whole slice of things that go with that 
do we need across the community? And then there is a budget and 
a management strategy that goes with gearing up. That time 
passed.
    Now we still need to have that capability, that flexibility 
to have agile management strategies to do the supply-side work 
to address your concern, Senator.
    Senator Akaka. One reason that demand is outpacing the 
supply of skilled analysts and linguists is because our schools 
do not promote the study of languages. Our school curricula do 
not always match the needs of society, nor is public service 
always honored.
    Did the Commission discuss any changes to our education 
system to address these deficiencies?
    Mr. Zelikow. We did, sir, not at great length. In Chapter 
3, we actually called attention to the problem in getting 
people who would study Arabic in American higher education and 
some of the trends that were creating that problem. There is 
perhaps a role for both government and the private sector in 
incentivizing higher education to devote resources. I think 
that some of that is already happening now, and all of you know 
that in the past the government has done things, such as in the 
National Defense Education Act during the Cold War, to try to 
incentivize the study of languages that might otherwise not 
draw as many students as one would wish.
    Senator Akaka. Yesterday, President Bush, as we all know, 
announced that he will create the NCTC by Executive Order and 
he called on Congress to amend the National Security Act of 
1947 to create a National Intelligence Director. Until the NID 
exists, the NCTC will report to the Director of the CIA.
    I am concerned that if Congress does not agree with the 
President and decides against creating a National Intelligence 
Director, which is a possibility, the NCTC will remain housed 
under the CIA and could end up being a second TTIC.
    Will you comment on the risk of implementing one 
recommendation without the other and whether the two concepts 
are dependent on each other?
    Mr. Zelikow. Sir, the NCTC will not work as a subordinate 
entity of the CIA. It is just as simple as that. Let me give 
you one example, but there are many. One example is the NCTC is 
supposed to run intelligence operations across the foreign-
domestic divide, including, say, in Honolulu or in Phoenix. The 
head of the CIA should not be the person who is responsible for 
overseeing domestic intelligence operations. That is already 
forbidden by law, and that is not a provision of law we propose 
be repealed.
    Senator Akaka. Would you like to comment, Mr. Kojm?
    Mr. Kojm. No. I would simply agree with my colleague.
    Senator Akaka. Thank you very much, Madam Chairman. My time 
has expired.
    Chairman Collins. Thank you. Senator Dayton.
    Senator Dayton. Thank you, Madam Chairman.
    I want to join with others in thanking you for your 
extensive and exhaustive work. It has been a great service to 
all of us and your country. Thank you very much.
    I want to go back to some of the events that you chronicle 
in the report on September 11 itself and some of the 
discrepancies particularly involving NORAD. A week after 
September 11, NORAD issued a public chronology in response to 
some of the initial reports that they had failed to defend our 
domestic airspace during the hijackings. And their chronology 
dated September 18, 2001, stated that the FAA notified NORAD of 
the second hijacking at 8:43 a.m., that FAA notified NORAD of 
the third hijacking at 9:24, that FAA notified NORAD of the 
fourth hijacking at an unspecified time, that prior to the 
crash in Pennsylvania, Langley F-16 Civil Combat Air Patrol 
remains in place to protect D.C., and then in public testimony 
before your Commission in May 2003, NORAD officials stated--and 
I don't know whether this was under oath or not, but that at 
9:16 they received hijack notification of United 93 from the 
FAA. Your report notes that hijacking did not actually occur 
until 9:28 a.m., 12 minutes after they said they received that 
notification. In that testimony also before your Commission, 
NORAD officials stated that at 9:24 they received notice of the 
hijacking of the third plane, American Flight 77, which your 
Commission's report also states is untrue, that NORAD was never 
notified that plane was hijacked. And they also testified 
before your Commission that they scrambled the Langley, 
Virginia, fighters to respond to those two hijackings, yet the 
taped remarks, according to your report, at both NORAD and FAA 
reportedly documented that order to scramble was in response to 
an inaccurate FAA report that American Flight 11 had not hit 
the first World Trade Tower and was headed to Washington. And 
your report notes that erroneous alert was transmitted by the 
FAA at 9:24 a.m., 38 minutes after American Flight 11 had, in 
fact, exploded into the World Trade Tower.
    Can you give me any way to reconcile their stated versions 
and yours?
    Mr. Zelikow. No, sir. We addressed that directly on page 31 
and 34 of the 9/11 Commission Report. We did more or less as 
you have just done, contrasted NORAD and FAA prior statements 
with the conclusions the Commission has reached.
    As you may know, sir, in public testimony, which was sworn, 
officials of both NORAD and FAA have acknowledged that the 
Commission's account of these facts is accurate and their prior 
accounts were indeed incorrect.
    Senator Dayton. Do they explain how it is that they came to 
recognize the veracity of yours and the inaccuracy of their 
own?
    Mr. Zelikow. Sir, we all regard it as a learning process, 
and I think further questions about the learning process that 
they are in are directed to those agencies.
    Senator Dayton. Thank you. Also, there were various reports 
based on sources shortly after September 11 that stated that 
very shortly after the Pentagon was struck at 9:34, ``Pentagon 
officials ordered up the Airborne Command Post, used only in 
national emergencies.'' There is another reference in another 
article to an AWACS plane being sent up at about that time. Are 
you aware of an AWACS or Airborne Command Post being sent aloft 
at that--again, this is between 9:35 and 10 a.m.? Because the 
report does not mention one.
    Mr. Zelikow. No, sir. The aircraft you are referring to has 
to do with continuity of government issues that we chose not to 
discuss in the report for reasons of classification. We are, 
however, aware of the aircraft movements you refer to and 
tracked the movements of that and other relevant aircraft 
completely. If they had borne in any material way on the 
September 11 story, we would have discussed it in our report.
    Senator Dayton. All right. So is the implication that they 
are aloft and were organizing an air defense of the United 
States at that point in time, domestic air defense, is that----
    Mr. Zelikow. No, sir. That aircraft had nothing to do with 
organizing American air defense and played no part whatever in 
the command and control issues that NORAD faced that morning.
    Senator Dayton. Thank you.
    Regarding the 15 agencies, entities of the Federal 
Government now engaged in intelligence-gathering activities, 
are there any that you could recommend to us be merged or 
consolidated?
    Mr. Zelikow. Sir, we did not take on the next issue of 
whether or not you need all these separate agencies, but we did 
do this: We did suggest that some of the agencies that are now 
in the Intelligence Community actually do not really need to be 
there. For instance, the State Department's Intelligence 
Research Bureau should just work for the Secretary of State. It 
should be an intelligence support entity for that Department, 
and it does not have to obey the dictates of the Intelligence 
Community.
    One of the problems we heard about now is sometimes when 
you want to obstruct action, you call a meeting with all 15 of 
the agencies there as a way of inducing sclerosis. We were 
trying in our recommendation to find a way of simplifying and 
strengthening the capability-building structure.
    Senator Dayton. Thank you, Madam Chairman.
    Chairman Collins. Thank you. Senator Levin.
    Senator Levin. Thank you, Madam Chairman.
    One of the things that we learned hopefully from the events 
of September 11 is that there was no accountability for the 
failures to do the jobs that were assigned to people. We had in 
the very case that you gave us in the Minneapolis case, we had 
that information going to the bin Laden desk at the FBI and 
national headquarters, and they did nothing with that 
information. We had in the case of the CIA folks overseas who 
saw the two people who they knew were part of al Qaeda go to a 
meeting, get to the United States. They were involved in the 
attack on the USS Cole. Then they later got to the United 
States. The CIA people had the job of putting them on a 
watchlist and did not. So the FBI was never alerted. That later 
resulted in the CIA Director being informed of this and saying, 
well, that is the FBI's job.
    But before you get to that, you have people who did not do 
their job. It was not just stovepipes. That was a problem. The 
FBI was not notified by the CIA, not because of the stovepipes, 
but because the people who were responsible to notify the 
Immigration and Naturalization Service, the Border Patrol, the 
FBI, the people in the CIA who were supposed to do that did not 
do that.
    What do you do about accountability? I mean, that is a 
failure inside the existing system. Now, that led to TTIC, and 
TTIC was supposed to solve this problem. But you still have 
failure to do one's job. Did you address that issue?
    Mr. Zelikow. Yes, to some extent. There are two levels. Did 
they do a job that was clearly defined and understood and it is 
just a case of mis-, mal- or non-feasance? If so, that is a 
proper matter for internal discipline by those agencies. And in 
the case of both of the agencies you mention, we are aware of 
the Inspector General work that is being done now by both the 
CIA and the FBI.
    Senator Levin. Do you know if----
    Mr. Zelikow. It was important that we knew about that work 
and knew where they were going with those reports.
    Senator Levin. Has there been any discipline?
    Mr. Zelikow. As far as I know, sir, neither the FBI nor the 
CIA have taken any disciplinary actions. Their IG reports are 
in different stages.
    The second point I would just stress very briefly is their 
jobs were not well defined, which is a symptom of the problems 
in operational management we discussed earlier.
    Senator Levin. All right. We had the FBI Director and the 
CIA Director in front of us over at the Joint Intelligence 
Committee hearings, and they said these people did not do their 
job. The jobs were defined. They were supposed to notify the 
FBI when they knew that terrorists that were part of the al 
Qaeda group came to the United States. They were supposed to do 
that, and they did not. But, anyway, we will leave it at that.
    Mr. Zelikow. Let's just not--be sure not to scapegoat low-
level employees for management failures that go higher up.
    Senator Levin. I agree with that.
    Mr. Zelikow. They deserve to be dealt with. Others should 
do that and people should do that, but we wanted to avoid that 
temptation.
    Senator Levin. No, I agree with that. But you also have to 
have some accountability in the process at all levels. I don't 
want to scapegoat anybody at lower levels. I agree with you 
with the upper management failures, miserable failures, but, 
nonetheless, people who had assigned jobs to do did not do 
them, and there has been no accountability at that level 
either. I don't think you want to let anybody off the hook at 
any level, do you?
    Mr. Zelikow. No, sir. We are against letting people off the 
hook. [Laughter.]
    Senator Levin. I would hope so.
    Now, your recommendations that you say have been received 
so favorably, it seems to me when you analyze them have been 
really not received so favorably. Everybody says, yes, create a 
czar. We are supposed to have now a DCI, a Director of Central 
Intelligence, who has control presumably over both the analysis 
and the operations inside the Intelligence Community. It is 
supposed to be centralized now, that is, Director of Central 
Intelligence, the CIA Director as well.
    But let me go to your specific recommendations to see why 
it is you believe that there has not been greater support for 
your recommendations at the White House.
    First, they do not want to put it in the Executive Office 
of the President. That is a key recommendation. Second, 
apparently on program purse strings, that is not accepted.
    On hire and fire authority that you would give that 
Director over agency heads in the Intelligence Community, 
outside of the operations of the NCTC, we have silence on that 
one.
    So just take three big recommendations in terms of what we 
heard from the White House yesterday. First, the President does 
not want to put it in the Executive Office of the President; 
second, apparently does not accept control over the purse 
strings; and, third, at a minimum silence, is on the question 
of giving that new Director hire and fire authority over agency 
heads and top personnel in the Intelligence Community.
    Don't you consider that--those are not details. That is not 
like at 100,000 feet there is a great deal of acceptance here 
in the White House, which is a pretty important actor in this 
whole process. You have got some real rejection of two key 
principles and silence on another key principle. So I want you 
to comment on that.
    Mr. Zelikow. On the EOP point, yes, they are against it.
    Senator Levin. On the what?
    Mr. Zelikow. On the Executive Office of the President 
point, yes, they are against it. They want to create a new 
agency. OK. Maybe that is a good idea. Then let's step up to 
that idea and work it. They have not explicated that idea. That 
is a big idea. We have made a comment on it in our statement.
    On the budget and personnel issues, we prefer to think of 
what they did as a constructive beginning in a situation where 
they have not really made up their own minds what they want to 
do.
    To be fair to them, they have had this now for about 10 
days. Everybody agrees this needs to be handled thoughtfully. 
You heard the panel earlier this morning. We would rather 
encourage them to sit down and focus on the details and see 
where we go from there.
    Mr. Kojm. Senator, I think we heard ice breaking 
yesterday--support from the President for a National 
Intelligence Director, support for a National Counterterrorism 
Center, for joint intelligence and joint planning of 
operations. These are fundamental breakthroughs that many who 
have looked at the Intelligence Community over two decades have 
understood the problem and made recommendations and, frankly, 
have gotten nowhere. We think we have gotten somewhere as of 
yesterday.
    But even though the ice broke, there is still a lot of 
water that you have to paddle that is pretty dangerous to get 
across, and we are going to devote ourselves to that effort.
    Senator Levin. My time is up. Thank you.
    Chairman Collins. Thank you.
    I want to thank our witnesses for being here today and for 
the extraordinary work that they have done on this report. We 
very much appreciate your assistance, and we look forward to 
working closely with you as we proceed with the remainder of 
the Committee's work.
    The hearing record will remain open for 5 days. We hope you 
will be willing to respond to additional questions from the 
Committee Members.
    Again, thank you very much for your service, and this 
hearing is now adjourned.
    [Whereupon, at 1:53 p.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              


    [The op-ed from the Washington Post, August 3, 2004, 
follows:]
                 INTELLIGENCE REFORM AND FALSE URGENCY
                             By Chuck Hagel
    We stand at a moment filled with potential for bringing about the 
responsible intelligence reforms needed to meet the threats of the 21st 
Century. But if we allow the current national consensus for 
intelligence reform to become a tool in the partisan rancor of 
presidential politics, we risk doing enormous damage to our 
intelligence community. We must not allow false urgency dictated by the 
political calendar to overtake the need for serious reform. This is an 
enormous undertaking filled with consequences that will last a 
generation.
    There is no debate about the need to reform our 20th Century 
intelligence infrastructure. Yesterday President Bush and Sen. John F. 
Kerry publicly discussed several reform ideas that Congress will 
consider. But there is much work to be done to bring about the right 
reforms. Policymakers must not shy away from this responsibility; we 
must embrace it. The stakes could not be higher. While inaction is 
unacceptable, serious consequences will come with reform. Policymakers 
owe it to the American people to understand these consequences before 
they act.
    A mistaken impression has developed that since September 11, 2001, 
little has been done to improve our intelligence capabilities. This is 
not true. We are unquestionably a safer nation today than we were three 
years ago. The legislative and executive branches of government have 
been reviewing and adjusting our intelligence--the gathering, 
processing and management of it--since September 11. We are vastly more 
prepared to respond to biological or chemical terrorist attacks than 
before September 11. Our border security, documentation, information 
sharing and coordination among government agencies have all been 
improved. Last month, the Senate Select Committee on Intelligence, on 
which I serve, issued the first part of our report on intelligence 
failures prior to the war in Iraq. We have began the second phase of 
our report, which will include recommendations on reform of our 
intelligence community. We have heard and will continue to hear from 
current and former members of that community, intelligence experts and 
policymakers responsible for making decisions based on the intelligence 
they are provided.
    In 2001 the president's Foreign Intelligence Advisory Board, 
chaired by former national security adviser Brent Scowcroft, provided 
the president with a comprehensive review of the intelligence community 
and recommendations.
    Last month the 9/11 Commission, led by former New Jersey governor 
Tom Kean and former Indiana representative Lee Hamilton, produced a 
remarkable bipartisan document that offered recommendations for 
improving our intelligence and security structures. All Americans owe 
them a debt of gratitude for their work.
    This year President Bush designated a bipartisan panel to examine 
U.S. intelligence capabilities. The commission, led by former senator 
and governor Chuck Robb of Virginia and federal appellate judge 
Laurence Silberman, has been given a broad mandate to ``assess whether 
the Intelligence Community is sufficiently authorized, organized, 
equipped, trained and resourced to . . . support United States 
Government efforts to respond to . . . the proliferation of weapons of 
mass destruction, related means of delivery, and other related threats 
of the 21st Century.'' They are to report their findings to the 
president by March 31.
    In addition to the intelligence committees, Senate and House 
committees are studying reform of our intelligence community. Some will 
hold hearings during the August congressional recess. The work of 
intelligence reform cuts a wide swath across our government. All these 
hearings in committees of jurisdiction are critical for any reforms to 
succeed.
    The American people should have confidence that our intelligence 
system is the finest in the world. This is no reason to ignore the 
reforms needed to meet the threats we face, but it is reason for the 
American people to feel secure. They should not be misled into 
believing that they are at risk because of an incompetent, inadequate 
intelligence system. Panic is not the order of the day. Responsible 
reform is the objective.
    Our society is the most open, transparent and free society in 
history. Because of this, we will always face risks. The leaders 
charged with keeping this country safe should never be satisfied that 
we have done enough. There will always be room to improve our 
intelligence and security systems.
    We will reform our intelligence community. The responsibilities of 
leadership require our action. But we must not rush haphazardly through 
what may be the most complicated and significant government 
reorganization since World War II. By the time the commission that 
President Bush empaneled to examine U.S. intelligence reports to him 
next March, we will have completed a massive series of investigations 
and hearings and a decisive presidential election.
    The consequences of the decisions we make regarding intelligence 
reform will ripple far beyond our shores. The security of the next 
generation of Americans and global stability depend on our ability to 
wisely answer history's call. We must match the timeliness of our 
actions with wisdom and reason. This requires responsible reform.
    The writer is a Republican Senator from Nebraska.
    [GRAPHIC] [TIFF OMITTED] T5506.001
    
    [GRAPHIC] [TIFF OMITTED] T5506.002
    
    [GRAPHIC] [TIFF OMITTED] T5506.003
    
    [GRAPHIC] [TIFF OMITTED] T5506.004
    
    [GRAPHIC] [TIFF OMITTED] T5506.005
    
    [GRAPHIC] [TIFF OMITTED] T5506.006
    
    [GRAPHIC] [TIFF OMITTED] T5506.007
    
    [GRAPHIC] [TIFF OMITTED] T5506.008
    
    [GRAPHIC] [TIFF OMITTED] T5506.009
    
    [GRAPHIC] [TIFF OMITTED] T5506.010
    
    [GRAPHIC] [TIFF OMITTED] T5506.011
    
    [GRAPHIC] [TIFF OMITTED] T5506.012
    
    [GRAPHIC] [TIFF OMITTED] T5506.013
    
    [GRAPHIC] [TIFF OMITTED] T5506.014
    
    [GRAPHIC] [TIFF OMITTED] T5506.015
    
    [GRAPHIC] [TIFF OMITTED] T5506.016
    
    [GRAPHIC] [TIFF OMITTED] T5506.017
    
    [GRAPHIC] [TIFF OMITTED] T5506.018
    
    [GRAPHIC] [TIFF OMITTED] T5506.019
    
    [GRAPHIC] [TIFF OMITTED] T5506.020
    
    [GRAPHIC] [TIFF OMITTED] T5506.021
    
    [GRAPHIC] [TIFF OMITTED] T5506.022
    
    [GRAPHIC] [TIFF OMITTED] T5506.023
    
    [GRAPHIC] [TIFF OMITTED] T5506.024
    
    [GRAPHIC] [TIFF OMITTED] T5506.025
    
    [GRAPHIC] [TIFF OMITTED] T5506.026
    
    [GRAPHIC] [TIFF OMITTED] T5506.027
    
    [GRAPHIC] [TIFF OMITTED] T5506.028
    
    [GRAPHIC] [TIFF OMITTED] T5506.029
    
    [GRAPHIC] [TIFF OMITTED] T5506.030
    
    [GRAPHIC] [TIFF OMITTED] T5506.031
    
    [GRAPHIC] [TIFF OMITTED] T5506.032
    
    [GRAPHIC] [TIFF OMITTED] T5506.033
    
    [GRAPHIC] [TIFF OMITTED] T5506.034
    
    [GRAPHIC] [TIFF OMITTED] T5506.035
    
    [GRAPHIC] [TIFF OMITTED] T5506.036
    
    [GRAPHIC] [TIFF OMITTED] T5506.037
    
    [GRAPHIC] [TIFF OMITTED] T5506.038
    
    [GRAPHIC] [TIFF OMITTED] T5506.039
    
    [GRAPHIC] [TIFF OMITTED] T5506.040
    
    [GRAPHIC] [TIFF OMITTED] T5506.041
    
    [GRAPHIC] [TIFF OMITTED] T5506.042
    
    [GRAPHIC] [TIFF OMITTED] T5506.043
    
    [GRAPHIC] [TIFF OMITTED] T5506.044
    
    [GRAPHIC] [TIFF OMITTED] T5506.045
    
    [GRAPHIC] [TIFF OMITTED] T5506.046
    
    [GRAPHIC] [TIFF OMITTED] T5506.047
    
    [GRAPHIC] [TIFF OMITTED] T5506.048
    
    [GRAPHIC] [TIFF OMITTED] T5506.049
    
    [GRAPHIC] [TIFF OMITTED] T5506.050
    
    [GRAPHIC] [TIFF OMITTED] T5506.051
    
    [GRAPHIC] [TIFF OMITTED] T5506.052
    
    [GRAPHIC] [TIFF OMITTED] T5506.053
    
    [GRAPHIC] [TIFF OMITTED] T5506.054
    
    [GRAPHIC] [TIFF OMITTED] T5506.055
    
    [GRAPHIC] [TIFF OMITTED] T5506.056
    
    [GRAPHIC] [TIFF OMITTED] T5506.057
    
    [GRAPHIC] [TIFF OMITTED] T5506.058
    
    [GRAPHIC] [TIFF OMITTED] T5506.059
    
    [GRAPHIC] [TIFF OMITTED] T5506.060
    
    [GRAPHIC] [TIFF OMITTED] T5506.061
    
    [GRAPHIC] [TIFF OMITTED] T5506.062
    
    [GRAPHIC] [TIFF OMITTED] T5506.063
    
    [GRAPHIC] [TIFF OMITTED] T5506.064
    
    [GRAPHIC] [TIFF OMITTED] T5506.065
    
    [GRAPHIC] [TIFF OMITTED] T5506.066
    
    [GRAPHIC] [TIFF OMITTED] T5506.067
    
    [GRAPHIC] [TIFF OMITTED] T5506.068
    
    [GRAPHIC] [TIFF OMITTED] T5506.069
    
    [GRAPHIC] [TIFF OMITTED] T5506.070
    
    [GRAPHIC] [TIFF OMITTED] T5506.071
    
    [GRAPHIC] [TIFF OMITTED] T5506.072
    
    [GRAPHIC] [TIFF OMITTED] T5506.073
    
    [GRAPHIC] [TIFF OMITTED] T5506.074
    
    [GRAPHIC] [TIFF OMITTED] T5506.075
    
    [GRAPHIC] [TIFF OMITTED] T5506.076
    
    [GRAPHIC] [TIFF OMITTED] T5506.077
    
    [GRAPHIC] [TIFF OMITTED] T5506.078
    
    [GRAPHIC] [TIFF OMITTED] T5506.079
    
    [GRAPHIC] [TIFF OMITTED] T5506.080
    
    [GRAPHIC] [TIFF OMITTED] T5506.081
    
    [GRAPHIC] [TIFF OMITTED] T5506.082
    
    [GRAPHIC] [TIFF OMITTED] T5506.083
    
    [GRAPHIC] [TIFF OMITTED] T5506.084
    
    [GRAPHIC] [TIFF OMITTED] T5506.085
    
    [GRAPHIC] [TIFF OMITTED] T5506.086
    
    [GRAPHIC] [TIFF OMITTED] T5506.087
    
    [GRAPHIC] [TIFF OMITTED] T5506.088
    
    [GRAPHIC] [TIFF OMITTED] T5506.089
    
    [GRAPHIC] [TIFF OMITTED] T5506.090
    
    [GRAPHIC] [TIFF OMITTED] T5506.091
    
    [GRAPHIC] [TIFF OMITTED] T5506.092
    
    [GRAPHIC] [TIFF OMITTED] T5506.093
    
    [GRAPHIC] [TIFF OMITTED] T5506.094
    
    [GRAPHIC] [TIFF OMITTED] T5506.095
    
    [GRAPHIC] [TIFF OMITTED] T5506.096
    
    [GRAPHIC] [TIFF OMITTED] T5506.097
    
    [GRAPHIC] [TIFF OMITTED] T5506.098
    
    [GRAPHIC] [TIFF OMITTED] T5506.099
    
    [GRAPHIC] [TIFF OMITTED] T5506.100
    
    [GRAPHIC] [TIFF OMITTED] T5506.101
    
    [GRAPHIC] [TIFF OMITTED] T5506.102
    
    [GRAPHIC] [TIFF OMITTED] T5506.103
    
    [GRAPHIC] [TIFF OMITTED] T5506.104
    
    [GRAPHIC] [TIFF OMITTED] T5506.105
    
    [GRAPHIC] [TIFF OMITTED] T5506.106
    
    [GRAPHIC] [TIFF OMITTED] T5506.107
    
    [GRAPHIC] [TIFF OMITTED] T5506.108
    
    [GRAPHIC] [TIFF OMITTED] T5506.109
    
    [GRAPHIC] [TIFF OMITTED] T5506.110
    
    [GRAPHIC] [TIFF OMITTED] T5506.111
    
    [GRAPHIC] [TIFF OMITTED] T5506.112
    
                                 <all>

</pre></body></html>
